<html>
<title> - REVIEWING THE IMPLEMENTATION OF MAJOR PROVISIONS OF THE VOW TO HIRE HEROES ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    REVIEWING THE IMPLEMENTATION OF

                     MAJOR PROVISIONS OF THE VOW TO

                        HIRE HEROES ACT OF 2011

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 31, 2012

                               __________

                           Serial No. 112-64

                               __________

       Printed for the use of the Committee on Veterans' Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
74-540                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                              May 31, 2012

                                                                   Page
Reviewing the Implementation of Major Provisions of the VOW to 
  Hire Heroes Act of 2011........................................     1

                           OPENING STATEMENTS

Chairman Jeff Miller.............................................     1
    Prepared statement of Chairman Miller........................    31
Hon. Corrine Brown, Democratic Member............................     3
    Prepared statement of Ms. Brown..............................    32

                               WITNESSES

The Honorable Allison Hickey, Under Secretary for Benefits, U.S. 
  Department of Veterans Affairs.................................     4
    Prepared statement of Ms. Hickey.............................    33

Accompanied by:

Mr. Curtis L. Coy, Deputy Under Secretary for Economic 
  Opportunity, Veterans Benefits Administration, U.S. Department 
  of Veterans Affairs............................................     4

Mr. Ismael Ortiz, Jr., Acting Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor......     6
    Prepared statement of Mr. Ortiz, Jr..........................    36

Accompanied by:

Ms. Kathy Tran, Director, Division of Policy, Legislation, and 
  Regulation, Employment and Training Administration (ETA), U.S. 
  Department of Labor............................................     4

                       SUBMISSIONS FOR THE RECORD

Mark Andrekovich, Chief of Human Capital & President, Tax Credit 
  and Employer Services..........................................    41


                    REVIEWING THE IMPLEMENTATION OF



                     MAJOR PROVISIONS OF THE VOW TO



                        HIRE HEROES ACT OF 2011

                              ----------                              


                         THURSDAY, MAY 31, 2012

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:23 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[Chairman of the Committee] presiding.
    Present: Representatives Miller, Stearns, Lamborn, 
Bilirakis, Stutzman, Runyan, Benishek, Brown, Michaud, 
McNerney, Walz, and Barrow.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. Good morning, everybody. Thank you very much 
for being with us this morning.
    We just spent last weekend and in particular Monday 
honoring our Nation's defenders that are no longer with us. Now 
it is time for us to renew our focus on those who still need 
our help in securing a good job.
    And I welcome this morning Under Secretary Hickey and 
Deputy Assistant Secretary Ortiz to the Committee. I am eager 
to hear how the Department of Veterans Affairs and the 
Department of Labor are progressing in meeting the goals of the 
VOW to Hire Heroes Act of 2011.
    The VOW Act is a bipartisan and bicameral effort to reduce 
unemployment among veterans. And while every provision in the 
law is important, I believe that the centerpiece of the act is 
what is being called the Veterans Retraining Assistance Program 
or VRAP.
    Of the approximately $1.7 billion cost for the bill, which 
was paid for, $1.6 billion was spent to pay for a year of GI 
Bill benefits for nearly 100,000 unemployed veterans between 
the ages of 35 and 60. The balance funded Chairman Murray's 
vocational rehabilitation provision and the tax credit 
suggested by President Obama.
    The VOW Act is an excellent example of what we can do when 
we all work together. And I thank the Members of both sides of 
the aisle for their support and continuing interest in the 
success of this particular piece of legislation.
    Today we are going to hear from senior oficials tasked with 
implementing all the provisions of the law. I have asked them 
to concentrate primarily on VRAP and I am looking forward to 
hearing how they are setting the stage for a successful launch 
on 1 July.
    While I am impressed by the level of effort being made by 
program level staff at both departments, I am concerned that 
not enough is being done by either cabinet secretaries or our 
President to promote this benefit.
    Getting the message out about this opportunity is 
critically important to putting unemployed veterans on a path 
to a job in a high-demand field. Clearly, aggressive promotion 
of the program by the nearly 3,000 one-stop employment centers 
are the key to filling the 99,000 training slots that have been 
authorized by the VOW Act.
    I want to give you just one example of why I am concerned 
that despite VA's significant outreach efforts for which I 
commend them, problems are still arising.
    Staff was contacted by a community-based organization in 
Georgia about what appears to be a lack of effort to get the 
program started. Shortly after passage of the VOW Act, the 
organization contacted the Augusta one-stop employment center 
to ask about how to enroll unemployed vets in the program.
    They asked again in mid March and the DVOPs and the LVERs 
were still not aware of the program. Two weeks later, Augusta 
told them the Georgia Department of Labor was not aware of 
VRAP.
    In early April, both the Georgia and South Carolina 
Departments of Labor stated they were waiting for policy from 
D.C. In late April, there still appeared to be little 
understanding of how the program would work.
    It appears that finally on the 11th of May, a mass email 
from VA was released detailing how the program would be 
implemented only four days later on May 15th.
    Obviously if that is typical of the level of awareness at 
the one-stop centers, I think we all agree we have big problems 
with the potential launch coming up shortly.
    Secretary Ortiz, unless your Federal staff here in D.C. and 
in the states are contacting the DVOP and the LVERs and the 
one-stop center, there is no way that you are going to be able 
to know whether the word is getting out and how the one-stop 
centers intend to fill the training slots.
    I truly hope that this is an isolated case, but I am not 
convinced that it is.
    Having said that, I am pleased to see that 11,600 
applications have been received so far, meaning that we are 
well on our way to filling all of the 45,000 slots paid for in 
the VOW Act for the remainder of this fiscal year.
    I also encourage each of the Members to take a strong 
effort in their districts to get the word out about VRAP so 
that we see the unemployment rate among our veterans in their 
prime earning years will continue to decrease.
    I want to share a story about one of my constituents, Mr. 
Todd C. Buchanan. He is a 35-year-old veteran of the United 
States Navy. He learned about the VRAP Program through an 
advertisement that the one-stop ran in their local newspaper. 
He was excited to learn of this second chance for veterans as 
his GI Bill benefits had already expired.
    In response to the newspaper ad, Mr. Buchanan scheduled an 
appointment to review his options with an LVER. They cross-
walked the VRAP high-demand occupations with the Okaloosa and 
Walden County boasted the fastest growing occupation list that 
they had and considered the veteran's aptitude and his 
interests.
    His application was submitted online and he will register 
at the Choice Technical Training Center for a welding 
certificate upon VA determining that he is eligible.
    And I submit to our committee this morning that Mr. 
Buchanan is the type of veteran that we are trying to reach out 
to. Hopefully he will be determined eligible and put on the 
path to a new career.
    This bill passed with broad bipartisan and bicameral 
support. And we owe it to our veterans as well as our taxpayers 
to ensure that it is implemented properly.
    Ms. Brown, I apologize for beginning the hearing late this 
morning. I would yield to you for any opening remarks that you 
have.
    [The prepared statement of Jeff Miller appears on p. 30.]

   OPENING STATEMENT OF MS. CORRINE BROWN, DEMOCRATIC MEMBER

    Ms. Brown. Thank you, Mr. Chairman. And I want to thank you 
for holding this hearing today on the Veterans Retraining 
Assistance Program.
    I welcome this opportunity to hear what preparations have 
been done so far by the Department of Veterans Affairs and the 
Department of Labor to implement the Veterans Retraining 
Assistance Program.
    I hope that both agencies are working together because the 
starting date is July 1, 2012. It is right around the corner. 
We need to be proactive in marketing this program and 
identifying pitfalls that could derail this program.
    The retraining program is limited to 45,000 participants 
from July 1, 2012 through September the 30th, 2012 and 54,000 
participants from October 1, 2012 through March 31st, 2014.
    Since money for retraining programs is very difficult to 
find these days, I hope that both agencies understand how 
important it is that we place a veteran in every single slot.
    This program will run for a short period and we need to 
make sure that we get most out of the limited time we have now.
    The Bureau of Labor Statistics report that in 2011, about 
5.9 million veterans have served on active duty from the Gulf 
War One to the Korean War. Therefore, I expect Labor and VA to 
find more than enough veterans to fill all of the slots that 
will be available. It would be tragic if we do not help 
veterans take advantage of these opportunities.
    I know that employment from VA and Labor is here today and 
briefed staff. I appreciate them being here again to answer 
more questions.
    Since the retraining program started accepting 
applications, I would like to know if there are any problems. 
The key thing I am looking for for today from both agencies is 
honesty on where the program stands today and assurances that 
all problems are being resolved.
    Do not wait until the last minute to tell us that there are 
problems that would derail this program. We need to know in a 
timely fashion if there are any problems with the program roll-
out and if there is anything we can do to help.
    The Bureau of Labor Statistics report that the overall 
unemployment rate for veterans is 8.3 percent for 2011. The 12 
months that veterans are now eligible should be a springboard 
to better employment in a very difficult job market.
    The Department of Labor has listed 210 high-demand 
occupations for veteran retraining assistance programs. I would 
like to ask that the Department of Labor keep an open mind if 
opportunities arise to increase the number of high-demand 
occupations. In this very poor economy, we should allow 
veterans to pursue all worthwhile occupations that lead to 
gainful employment.
    I thank you, Mr. Chairman, and I am looking forward to 
today's hearing from the witnesses.
    [The prepared statement of Corrine Brown appears on p. 31.]
    The Chairman. Thank you very much, Ms. Brown, and I 
appreciate your steadfast support of the veteran community, 
your help as we work across the aisle to move this legislation 
as all the Members of this committee have worked together to 
make sure that this legislation made it into law and now it is 
our job to make sure that it is implemented in the fashion that 
we intended it to be.
    I would ask, as customary, that all Members would waive 
their opening statements. They will be without objection 
entered into the record at the appropriate place. Without 
objection, so ordered.
    And our first and only panel this morning is already seated 
at the table. We have the Honorable Allison Hickey who is the 
Under Secretary for Benefits at VA. And she is accompanied by 
Mr. Curtis Coy, the Deputy Under Secretary for Economic 
Opportunity at VA.
    Next we have Mr. Ismael Ortiz, better known as Junior 
Ortiz, who is the Deputy Assistant Secretary for Veterans' 
Employment and Training at the Department of Labor. He is 
accompanied by Ms. Kathy Tran who is the Director of the 
Division of Policy, Legislation and Regulation of the 
Unemployment and Training Administration at the Department of 
Labor.
    As always, again, your complete statement will be entered 
into the record. And I would like to start this morning with 
Under Secretary Hickey.
    You are recognized for 5 minutes.

STATEMENTS OF THE HONORABLE ALLISON HICKEY, UNDER SECRETARY FOR 
 BENEFITS, U.S. DEPARTMENT OF VETERANS AFFAIRS, ACCOMPANIED BY 
CURTIS L. COY, DEPUTY UNDER SECRETARY FOR ECONOMIC OPPORTUNITY, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
    AFFAIRS; ISMAEL ORTIZ, JR., ACTING ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
LABOR, ACCOMPANIED BY KATHY TRAN, DIRECTOR, DIVISION OF POLICY, 
      LEGISLATION AND REGULATION, EMPLOYMENT AND TRAINING 
         ADMINISTRATION (ETA) U.S. DEPARTMENT OF LABOR

                  STATEMENT OF ALLISON HICKEY

    Ms. Hickey. Thank you, Chairman Miller.
    Good morning, Chairman Miller, Congresswoman Brown, Members 
of the Committee. I appreciate the opportunity to appear before 
this committee to discuss the actions taken by the Department 
of Veterans Affairs in collaboration with the Department of 
Labor to implement the Veterans Retraining Assistance Program 
or VRAP of the VOW to Hire Heroes Act of 2011.
    Let me begin by first thanking Members of this Committee 
for your continued support to provide training and education 
programs to help our Nation's veterans gain meaningful 
employment.
    I appreciate the opportunity to briefly discuss the steps 
we have taken to implement VRAP, the outreach activities 
accomplished to date, and updates related to VA's VR&E Program 
in this act.
    Under implementation, since November 21st, 2011 when 
Congress enacted and President Obama signed the VOW to Hire 
Heroes Act of 2011, VA and DoL have been actively engaged in 
implementation actions.
    Implementation of the VRAP Program first required 
development of the application process. VA and the Department 
of Labor worked collaboratively to develop this process and are 
executing today under this plan.
    In collaboration with DoL, VA developed an on-line Web site 
specifically focused on VRAP. This site can be accessed through 
numerous connections including the ebenefits, vetsuccess.gov, 
VA for Vets, the GI Bill Web site, and DoL's my next move Web 
site, veteran service organization Web sites, and industry 
partner Web sites.
    Yesterday VA delivered VRAP tool kits to the leadership of 
this committee and the Senate Veterans' Affairs Committee as 
well as all 535 Members of Congress. We respectfully request as 
appropriate congressional support to post this information 
including the Web site address on your Web sites as well.
    In April, VA not only stood up the VRAP Web site but also 
trained education claims personnel to process VRAP applications 
in anticipation of the enrollment. We began accepting VRAP 
applications on May 15th, 2012, 17 days earlier than our 
original deadline of tomorrow.
    As of this morning, VA received 12,200 applications. We 
began processing these claims on May 21st. In less than seven 
working days, we have processed over 1,400 of these VRAP claims 
from start to end.
    To ensure this program's success, VA and DoL continue to 
collaborate and participate in biweekly meetings and leverage a 
common share point site with daily data sharing.
    VA staff meet daily to ensure we stay on track for the July 
1st, 2012 implementation date.
    From an outreach perspective, with the support of DoL, VA 
developed a comprehensive outreach program to successfully 
launch and implement VRAP. The central component of this is the 
VOW Web site. To date, the Web site has received nearly 50,000 
visitors.
    Because a centralized system to identify eligible veterans 
does not exist today, VA and DoL are working with our numerous 
stakeholders to reach eligible veterans.
    For example, VA contacted individuals and groups with the 
potential to reach over four million veterans including 
vetsuccess.gov users, VA for Vet users, over 200 government and 
nonprofit organizations including our Nation's VSOs, 75 
newspapers in communities with high veteran populations, 
unemployed populations.
    All our military time newspapers have carried it for free, 
numerous industry partners. VA has contacted several national 
sports teams in areas of high veteran unemployment to ask for 
their assistance.
    Yesterday the Florida Marlins agreed to post a PSA on their 
Jumbotron during their Monday night home games and we are 
working with others.
    We also contacted local government officials in the hundred 
counties with the highest veterans' unemployment including all 
of state directors for veterans' affairs, county service 
officers, and DoL one-stop shops.
    The assistant secretary of Defense for Reserve Affairs sent 
information to this Nation's 1.5 million members of the 
national guard and reserve. We are also leveraging social media 
to reach the target population.
    We know from recent surveys of all veterans that 73 percent 
want to meet us online. Therefore, VA has posted messages on 
VA's Facebook pages, Twitter accounts, and many linked in pages 
of groups.
    Additionally, on May 15th, the White House joining forces 
team sent out a blog notice that reached almost 1.4 million 
individuals.
    We also continue to participate in local job fairs at the 
U.S. Chamber of Commerce and are getting that word out face to 
face with our veterans looking for jobs. We will do the same 
thing in the big Detroit hiring event here at the end of June.
    VA has either implemented or is on target to timely 
implement all of the VRE provisions of the VOW to Hire Heroes 
Act including the provision which qualifies certain veterans 
for an additional 12 months of vocational rehabilitation 
services. We began accepting those referrals in early February 
and have already made some applications effective tomorrow.
    In closing, the benefits we provide under the VOW to Heroes 
Act are yet another way we are all taking care of our veterans 
and their families and survivors.
    Mr. Chairman, this concludes my remarks and I am looking 
forward to answering any of the questions you and the Members 
of this committee have.
    [The prepared statement of Allison Hickey appears on p. 
32.]
    The Chairman. Thank you very much, Ms. Hickey.
    Mr. Ortiz, you are recognized for 5 minutes.

                   STATEMENT OF ISMAEL ORTIZ

    Mr. Ortiz. Good morning, Chairman Miller, Ranking Member 
Brown, and distinguished Members of the Committee.
    Thank you for the invitation to participate in today's 
hearing of Reviewing the Implementation of Major Provisions of 
the VOW to Hire Heroes Act of 2011.
    As you know, my name is Junior Ortiz and I am the Veterans' 
Employment and Training Service, Department of Labor. I am 
accompanied today by Ms. Kathy Tran from the Employment and 
Training Administration.
    At DoL, our mission is to provide veterans, transitioning 
servicemembers, and their families with the critical resources 
to assist and prepare them to obtain meaningful careers, 
maximize their employment opportunities, and protect their 
employment rights.
    As a marine corps veteran, I understand the importance of 
the service we provide. I have three sons on active duty and 
one that just left service. Between them, they have ten tours 
in Iraq and Afghanistan. So I understand the sacrifice made by 
the servicemembers and their families as well as the challenges 
they face when they return home.
    Secretary Solis and I believe that we have an obligation to 
serve these men and women as well as they have served us. That 
is why DoL is fully committed to serving transitioning 
servicemembers, veterans, and their families with our current 
programs as well as the initiatives provided by the VOW Act.
    During the last program year alone, DoL served 1.7 million 
veterans in various employment and training programs. The VOW 
Act has enhanced many of these programs and as discussed in my 
written testimony, DoL has been working hard to implement these 
provisions.
    Section 211 of the VOW Act established the Veterans 
Retraining Assistance Program. VRAP entitles eligible veterans 
to retraining assistance for up to 12 months when they pursue a 
qualified training program. I am pleased to report that we are 
moving forward to fully implement VRAP.
    Early on, DoL established the necessary memorandum of 
agreements with the VA to execute this program and identified 
over 200 high-demand occupations in which veterans can be 
trained.
    Additionally, DoL has enhanced my next move for veterans 
Web site to display information on VRAP.
    After working closely with the VA to create an on-line 
application process, we began accepting applications on May 
15th of this year.
    DoL and VA have been engaged in intensive outreach efforts 
to inform eligible veterans, the public workforce system, VSOs, 
and other stakeholders about VRAP.
    As part of the outreach efforts, DoL has issued guidance to 
state workforce assistance employees, creating and disseminated 
fact sheets, press releases, blog entries, email alerts and 
flyers to encourage others to spread the word.
    We also hosted a webinar with the VA to inform and train 
the public workforce system on the VRAP Program. We will 
continue to work diligently to reach out to the stakeholders to 
ensure eligible veterans have the opportunity to take advantage 
of this important program.
    In addition to VRAP, DoL is working to administer other VOW 
Act provisions such as Section 233 which allows individuals 
with service-connected disabilities who have exhausted UI 
benefits to seek additional assistance beginning tomorrow, June 
1st.
    While the VA is primarily responsible for administering 
this program, DoL has a key role in helping the VA to develop 
the eligibility determination process.
    DoL is working with other agencies to implement provisions 
of Sections 221 which requires mandatory participation of the 
transitioning servicemembers in DoL employment workshop.
    We are also in the process of changing over all the 
contract facilitator staff for the workshop as required by 
Section 223. Until the process is complete, DVOP and LVERs will 
be trained to deliver the new curriculum.
    As I testified before the Subcommittee last year, we are 
online and on track to meet the VOW Act's deadline of November 
21st, 2013.
    Moreover, DoL is working to implement many other VOW Act 
provisions to include new performance measures in the annual 
report, conducting demonstration projects and study on 
credentialing, clarifying priority of service requirements, and 
extending important tax credits proposed by the President.
    Finally, DoL has repurposed approximately $5.4 million of 
our 2011 project year budget in order to implement the 
provisions of the VOW Act.
    Distinguished Members of this committee, it is our 
responsibility to take care of our veterans and their families. 
That is why the Department of Labor in collaboration with its 
sister agencies is committed to ensuring that successful 
implementation of the VOW Act happens.
    Thank you again for the opportunity to testify today. I 
look forward to your questions.
    [The prepared statement of Ismael Ortiz, Jr. appears on p. 
35.]
    The Chairman. I was just asking staff a question. You 
talked about repurposing five plus million dollars to assist.
    Was it not funded properly in the legislation? Where is the 
money that the legislation appropriated? I am just trying to 
figure out why would you need to re-purpose additional money.
    Ms. Tran. There were several provisions that did not have--
that appropriated funds were not included in. So, for example, 
the Section 222 on the study of equivalencies is one of 
example.
    And so the re-purposed funds are from a demo project, a 
demonstration project, and so we were able to re-purpose that 
and dedicate that to various aspects of implementing VOW 
including providing grants to states to update their 
performance reporting systems, to capture the priority of 
service data elements, as well as data elements related to the 
WOTC provision.
    It also includes the study for the equivalencies between 
military and civilian occupations and a couple of other related 
activities.
    The Chairman. I mean, we paid for all of that. It was paid 
for, but your staff behind you is shaking their head. And I 
appreciate you being there.
    What states got the $5.4 million if that is what you did? 
You said you sent money out to the states to help them restudy 
or what was done with it again?
    Ms. Tran. Oh, sure. There were several activities that are 
included under the $5.4 million. One of them is to send grants 
to our states to update their performance----
    The Chairman. And those states were?
    Ms. Tran. It would be all 50 states plus the territories 
that received WIA and Wagner-Peyser formula funds.
    The Chairman. So $5 million over 50 states?
    Ms. Tran. No. So the $5.4 million covers that piece. It 
covers the study on military equivalencies. It covers updating 
our own Federal reporting systems to account for the new 
reporting, the service reporting and some of the WOTC 
provisions.
    It will also cover technical assistance to the workforce 
system on the new performance reporting requirements. I think I 
mentioned the study on equivalencies. And there may be others 
that I would have to get you the details on.
    The Chairman. Secretary Ortiz, how many one-stop centers 
have you surveyed or the department surveyed now to find out 
their level of awareness of VRAP and when and how did you 
contact these centers?
    Mr. Ortiz. Sir, on a daily basis, we contact different 
centers and make sure that the information is actually going 
down there, what ETA does as far as the Employment and Training 
Administration.
    Now, the specific items that you spoke about with the 
Augusta one, sir, the guidance that we put out was on the 
specific issue as far as a program letter went out on May 7th. 
The issue training and notice that we had went out on May 8th. 
On May 9th, the webinar went to all the workforce systems. And 
on May 16th, a joint press release was issued by Secretary 
Shinseki and by Secretary Solis.
    So when you were discussing specifics on the Augusta one, 
sir, the one that you mentioned that had not gotten the stuff 
in April, that is probably a true statement. And the reason why 
is because it did not come out until almost mid May.
    However, I can tell you that both the Augusta one and the 
South Carolina ones are both fully aware of what the VRAP 
Program is about. And what we are doing is initiating 
communications across the board to make sure that all the one-
stops, all 2,800 of our one-stops throughout the Nation are 
aware of what the VRAP is and how it affects our veterans.
    The Chairman. Let me aslo take a moment and compliment you 
on the webinar. I understand that it was done very well and 
hopefully it will have been well received by all of those who 
partook.
    How are the slots divided up? Is it first come, first 
serve? How does that work?
    Ms. Hickey. Chairman Miller, the slots are basically first 
come, first serve, but they are aligned against a set of 
criteria, a select set of criteria that were provided in the 
law. And so we worked through those.
    There is a break between the first wave and the second 
wave, though there is no break for us between our process 
during that period of time. We would just simply add the 45,000 
and one veteran who applies for the benefits in this first 
wave, we will have to have a conversation with them that tells 
them they will not be able to start their training until 1 
October when the second wave starts.
    The Chairman. What happens if a veteran enters the program 
and then drops out? Is that counted a used slot or if there is 
still funding left, can that be reallocated to another veteran?
    Ms. Hickey. Chairman Miller, we have been instructed that 
it works similarly to the other Montgomery GI Bill and other GI 
bills and when the veteran drops, then that authority drops in 
the 99,000 that are available.
    The Chairman. Drops in or----
    Ms. Hickey. I apologize, Chairman. Let me be a little more 
clear about that. If the veteran applies and then does not 
fulfill the whole year's worth of training and let's say they 
stop midpoint, then that is one of the 99,000 and we cannot 
recycle the rest of that benefit on to a different veteran.
    The Chairman. Is that right?
    Ms. Hickey. Sir, I think that is the provision of the law 
that has been laid out for us and so that is the way we are 
working it.
    The Chairman. That provision needs to be corrected, doesn't 
it? Would you recommend that that slot be reallocated?
    Ms. Hickey. Chairman Miller, from my perspective, from the 
advocacy that we have in VA for all veterans, we would 
certainly like to see every dollar that you all have put 
towards this be used to train veterans. So if you are inclined 
to do something diferent in the legislation, we would be happy 
to consider that.
    The Chairman. That is a great political answer. I 
appreciate that.
    Ms. Brown.
    Ms. Brown. Thank you.
    First of all, the good news is I just had my job fair which 
is my 20th year and had about 12,000 people attend. And at 
least 150 companies, but I am very pleased that the VA was 
there and this program was also there. And I want to thank you 
up front for that.
    Would you kind of walk me through how the program is to 
work because while Mr. Miller figured it out, I want to make 
sure my veterans know about it?
    And I am interested in how we are working with other 
stakeholders like community colleges.
    I mean, who is actually going to provide these various 
training programs and how are we partnering or contracting out 
which republicans like to hear? I like partnering. How is the 
program going to work?
    Let me just say when American get a cold, African Americans 
got pneumonia. So even if the statistics unemployment is one 
for everyone else, it is a lot worse for African Americans.
    So can someone answer that for me, please?
    Ms. Hickey. I am happy to address you, Congresswoman Brown, 
on that subject. We pretty much have no light between us on the 
process. So I will start there and then I will defer to 
Secretary Ortiz to fill in any other parts of the DoL equities 
that I might miss.
    So let me first say that it starts with our communication 
to the veteran and our outreach to the veteran on the 
availability of this 1-year benefit which is a superb benefit 
for our veterans to be able to exercise this training and 
education for both degree programs, non-degree programs, but 
leading to is the correct words in the language an associate's 
degree or a certification in a non-degree field.
    It does not mean that they actually have to accomplish it 
in that 1-year period of time, but it needs to lead to that. So 
first it does start with the veteran themselves after we have 
provided that outreach, then through the process of a self-
attestment.
    And I will ask Secretary Ortiz to talk more about that. 
They will come to us through the Web site and then we are using 
existing capability that we have long used for Montgomery GI 
Bill. So we have just refined it and updated it for this 
capability.
    And they online do what we call a bone app, on-line 
application and it pushes it immediately to DoL who does the 
verification on their criteria for unemployment and the like. 
And then that pushes it directly into us for us to make the 
assessments on veteran good standing, yes, they are a veteran, 
assessment of whether they have any more GI Bill or other kinds 
of employment opportunities left.
    Once that is all verified, then we go ahead and issue them 
what we call a certificate of eligibility saying, yes, you are 
entitled and working with that veteran, we then have them 
actually make the application.
    They go to school. They attest every month in school that 
they attended school and we pay that veteran directly and then 
they pay the bills for the school.
    Ms. Brown. Thank you.
    One of the problems that we had, the program that I was 
very excited about, the latest GI Bill update, was that it took 
a time before they could get their reimbursements because the 
school had to verify that they were in school. And so it was a 
real negative story on the news. And I was very disappointed 
because I thought it was such a great, exciting program.
    But if the school did not verify that they were in school, 
then they would get in trouble with us, the VA, because, you 
know, the audit would say, well, you have given them money and 
the student is not in school.
    So I hope we work through these kinds of issues as we start 
up.
    Ms. Hickey. Thank you, Congresswoman Brown.
    We are and, in fact, we are--this provision is the old 
Montgomery GI Bill provision which is we pay them once that 
veteran attests and then they take care of their bills with the 
school.
    And I will tell you I believe that we have testified in 
front of you that we are looking at that model again under GI 
Bill just to see if there is any way to adjust some of that 
discomfort level for our veterans in GI Bill.
    Mr. Ortiz. And, Congresswoman, just to add, after the 
individual finishes their training, then they are sent back to 
DoL within the 30 days after finishing. And what we do is 
whether they complete or terminate, they come back to DoL. So 
that way, we help them through our one-stop shops find 
employment.
    That is why it works really well, because we give them the 
initial okay, yes, they have met all the criteria. VA gives 
them the schooling part and then they come back to us and we 
help them with a job, ma'am.
    Ms. Brown. Might I add that many of the schools and the 
programs, particularly if they work as co-ops and other kinds 
of programs, can assist them in the job placement. So it could 
be--I mean, the veteran does not have to be coming back to you. 
It could be us working from the beginning as we train, 
placement, work study so that they will actually come in 
contact with that employer as we are going through the process.
    Mr. Ortiz. Well, Congresswoman, we want them to come back 
to us so that way, we have an accountability, so that we know 
exactly whether our LVERs are out there reaching out to exactly 
who you are talking to, ma'am, to be able to kind of work hand 
in hand to help place these individuals into proper places.
    Ms. Hickey. And, Congresswoman Brown, I would say actually 
your message is a very big message that our secretary, 
Secretary Shinseki, has been out and amongst all campuses and 
campus leaders, both degree and non-degree programs saying help 
us help them in not just completing the degree successfully and 
making the adjustment successfully but also in connecting to 
those employment opportunities.
    Ms. Brown. Thank you very much.
    I yield back.
    The Chairman. Thank you very much.
    I would note that our colleage, Mr. Lamborn, has joined us.
    Mr. Lamborn, for the record, I would like to acknowledge 
from this committee's standpoint our sympathies on the loss of 
your father a couple of days ago.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And he was, it is apropos for this committee, a World War 
II veteran, age 93 years of age, part of the greatest 
generation, although he just said he was doing his duty.
    And he fought in 11 campaigns in north Africa, Sicily, and 
Italy in World War II. He was an armor which means you put on 
the bombs and bullets on the attack aircraft.
    So he wanted to be a pilot. They would not let him 
physically. He did not physically qualify. And that is good 
because in the early days of the war, I think there was in some 
places a 90 percent mortality rate among pilots.
    So thank you, Mr. Chairman.
    The Chairman. Yes, sir.
    Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman.
    I have a question for both Secretary Hickey and Mr. Ortiz 
on dealing with the VSOs and how helpful and what part they 
have really played in helping promote this because I know 
actually even last year when you talked about another program 
that Congressman Holt and I had promoted dealing with suicide 
of veterans, the lack of knowledge of programs like that, and 
this is another one.
    But the VSOs and their ability to have direct contact with 
their members, how helpful have they been and how directly have 
you personally been working with them?
    Let's start with you, Secretary Hickey.
    Ms. Hickey. Thank you, Congressman Runyan, for your 
question.
    And I will tell you quite frankly I do not go anywhere 
without my veteran service organizations. They are our hands 
and feet everywhere, on the ground, forward in the fight, 
working as you have well described directly with our veterans. 
They are critical to our success in taking care of our veterans 
on all fronts including and especially the employment front.
    They have been very helpful. We have been working very 
closely with them in the outreach area. They have been helping 
us to get the word out to their constituencies on VRAP and 
other provisions of VOW to Hire Heroes Act. And I will say they 
are sitting right next to me, although behind me today, I do 
not go anywhere without them.
    Mr. Ortiz. And I cannot add any more than that, sir, 
honestly because, I mean, our VSOs, they are our force 
multipliers. And honestly they are the ones that get the 
message out where we cannot.
    And there are times when we may not be able to reach the 
veteran directly. However, they can and they have the 
opportunity and the ability to be able to reach and, you know, 
reach out and give them the guidance and the things that they 
need in order to make things happen.
    Mr. Runyan. Yeah. Because I am going through some of the 
statistical analysis, whether it is your mass emails or 
Facebook and that, and you see the numbers a lot of times are 
lacking. And I think even one of them, I think there was only 
about a 23 percent open rate of the emails you sent out. And I 
know a lot of that probably has to do with lack of current 
information, I think, a lot of times.
    Ms. Hickey. So, Congressman Runyan, this is a great 
question because it has to do even broader with our whole 
transformation effort, how do we deal with veterans who come 
from different eras and different cohorts who some are clearly 
online and clearly asking us to be there.
    And I will tell you our data from interviewing the 
population for the VRAP initiative, the 35 to 60-year-olds, 
they are online. When you move beyond that 60-year-old time is 
when you may hit some that are not, though my mother would 
scold me because she is very good on her Mac and her Apple 
computers. I am making a broad-brush assessment of that.
    I will tell you I think the other thing that is important 
to note is we did not take a one-channel avenue on this 
outreach. We have a face-to-face piece of it. We have an in 
paper print piece of it. We have a voice over piece of it. We 
are talking to newspapers and the like, all to reach a group of 
veterans that may not be online as well and might still fall 
into this category.
    And I will defer also to Secretary Ortiz for any other 
thoughts he might have on this.
    Mr. Ortiz. As Secretary Hickey has already said, I mean, 
the important piece of that, sir, is you try to hit--you move 
the message and put the message out where people can hear it.
    And, you know, although some of us might be a little, how 
do you say, hiccup with technology, me included, the idea is to 
be able to go out there and get all the people as much as 
possible the information that they can.
    We are not just on the VA side but on DoL's side, we are 
using every method that we can to get the information out 
there. It is an important project and we need to get it going.
    Mr. Runyan. No. And I think most of us sitting up here 
understand that specifically being a campaign year. It is much 
of the same stuff.
    Secretary Hickey, on dealing with appeals to the VRAP 
Program, how are they adjudicated and is that becoming a 
growing problem?
    Ms. Hickey. So, Congressman Runyan, I think we would have 
two different sides of that because he handles a certain part 
of the process for unemployment and things of that nature and 
for also the career fields that he has on his list.
    So I will handle if they are--if we do not have them 
certified under the conditions we must validate which is they 
are a veteran, they are a veteran in good standing, meaning, 
you know, no--everything above a dishonorable discharge.
    Mr. Runyan. Uh-huh.
    Ms. Hickey. And we will validate whether or not they have 
any benefits remaining. There is an appeal process that is 
described in the letter that we send out to them if, in fact, 
they are denied. And I have the details of the letter with me. 
If you would like me to go into specifications on that, I can 
certainly do that.
    But there is a defined process for them to do that and it 
tells them and instructs them on the letter if they believe 
that we have something done in error.
    Mr. Ortiz. And on our side, sir, I mean, we are the primary 
piece that brings the eligibility part. If the individual is 
not eligible, the good thing about the fact that they are 
coming through a one-stop is if they are not eligible for this, 
there are other programs that we might be able to direct them.
    Ms. Hickey. And if I might add also, Congressman Runyan, 
there is an interesting thing that we have learned in this few 
days that we have been in this process even with 12,000 
applicants and that is oftentimes our denial is because we have 
learned that they still have remaining education benefits with 
us.
    And so we do not just tell them they are denied for VRAP. 
We say you are denied because we have found you have additional 
benefits and then we do not just make them apply for those 
additional benefits. We send in the same breath a subsequent 
letter that gives them their certificate of eligibility for 
those benefits that they already have on the table.
    Mr. Runyan. I liked in the same breath because a lot of 
times, the lag is a huge part in dealing specifically with our 
benefits.
    And with that, Chairman, I yield back.
    The Chairman. Thank you very much.
    Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman, for having 
this very important hearing.
    And I have a couple of questions. The first is I have heard 
from several small towns and cities and county government the 
fact that they are looking for firefighters as well as police 
officers. And when you look at the unemployed in the military, 
particularly for the military police, they would like to hire 
veterans.
    Under the VOW Act, what are you doing to help encourage the 
municipal towns to hire veterans for police officers and what 
is available to them? That is my first question.
    My second question is, having done several manufacturing 
tours throughout my district over the past year, one of the 
things I hear a lot from businesses is they would like to hire 
more employees, but they found that they are not trained.
    When you look at the extension partnership program, the 
MOST Program, I do not know if you are familiar with it, it 
stands for mobile outreach skill training, in Maine, it is MEP, 
they go into these businesses and actually are willing to 
train. And they guarantee a job after the training or else they 
do not get paid for the training.
    Are you working with extension partnership programs 
throughout the country in that regard since they do guarantee 
jobs and do you have the resources needed?
    So I do not know who wants to, both of you, or who wants to 
answer both those questions.
    Mr. Ortiz. Congressman, first of all, I want to hit your 
first question first, sir.
    Firefighters and police officers are on a high-demand list. 
So as far as VRAP is concerned, this is an opportunity for them 
to be able to go in there if they meet the eligibility 
requirements, sir.
    On the second part of that, sir, if they do not, we also 
have local veterans' employment representatives in each one of 
the one-stop centers, our LVERs, who go outreach and make sure 
and talk to employers in different places to help them find the 
skilled persons that they are looking for.
    So our one-stops are a very important piece of getting that 
outreach part and also to get to with the cities, the local 
communities. That is the biggest piece that we are talking 
about, working with the communities as much as possible to get 
that information to us so that way, we can find the proper 
individuals to help them fill their needs.
    Mr. Michaud. And what type of benefit will a local 
community receive since they are tax exempt? Is there any 
specific--is it the training piece or is there any other 
benefit under the VOW Act that will be beneficial for the 
communities?
    Mr. Ortiz. Actually, sir, you know what? I am not really 
sure on the specifics on that, sir, but I will be more than 
happy to find out, sir.
    Mr. Michaud. Okay.
    Ms. Hickey. Congressman Michaud, let me just tell you how 
we have generally worked with the education programs in 
relation to this, especially the non-degree programs we started 
thanks to this committee and the Senate Veterans' Affairs 
Committee support from the 1st of October of last year where we 
are allowed to use GI Bill benefits towards non-degree efforts.
    We still require your state approving agency to certify the 
training. And if you have one in every one of your states, I 
would highly recommend that the counties contact the state 
approving agency, submit their training program to them, let 
them go through their normal process, certify it, and then I 
can cover them under the GI Bill or VRAP for either one.
    Mr. Ortiz. As far as the MOST, sir, the MOST Program, I am 
going to turn it over to Ms. Kathy Tran since she works 
specifically on those issues.
    Mr. Michaud. Okay.
    Ms. Tran. Sure. Regarding our partnership, we have a 
Federal partnership with the U.S. Department of Commerce and 
the MEP Program and we have been encouraging local partnerships 
in communities and regions across the country to partner 
between the workforce system and MEPs in order to support 
employment in the manufacturing arena.
    And we actually issued a training guidance letter or 
notice, I cannot remember which one, we can get back to you on 
that, recently to encourage those partnerships. And that letter 
included examples of existing successful partnerships at 
various different levels, whether it be working with MEPs on 
lay-up provision strategies, working with the MEP to help 
fulfill, you know, job openings and training.
    But also to, just to add to the question earlier, one-stop 
career centers are available to help local municipalities in 
their hiring. So they can work to help do recruitment, to do 
job screening, to post job openings. And so that is a good 
relationship between the one-stop career centers and those 
municipalities.
    And many local webs, you know, have good representation and 
good leadership from their city or county councils and such.
    Mr. Ortiz. And, sir, this is not specifically with 
veterans. This is for all.
    Mr. Michaud. Okay. Great. My last question actually, if you 
could submit to the Committee--Secretary Hickey, you mentioned 
that you have contacted over a hundred counties with the 
highest veterans' unemployment. Could you supply to the 
Committee a list of the counties and the states they are from 
that you have contacted for the record?
    Ms. Hickey. Congressman Michaud, we will do that.
    Mr. Michaud. Okay. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Benishek.
    Mr. Benishek. Thank you, Mr. Chairman.
    Thanks for coming before the Committee today.
    How many people got rejected or turned down from the people 
that applied? Was it 20 percent or was it 2,000 rejections or 
something that I saw?
    Ms. Hickey. Congressman Benishek, so this has only been 
open for a couple weeks now.
    Mr. Benishek. Right.
    Ms. Hickey. But even in those few weeks, we have had 12,000 
applicants made and of those, we have had 23 percent denied. 
But of that 23 percent, the bulk of them were denied because 
they already have existing benefits that they just were not 
aware they had.
    Mr. Benishek. Right. That was----
    Ms. Hickey. So there is a few left and in that few that are 
left, some of them are because we even determined they are not 
veterans.
    Mr. Benishek. Okay.
    Ms. Hickey. Some of them are because DoL has confirmed that 
they do not meet the unemployment aspect. And some of them are 
because they hit the 48-month maximum limit as provided in the 
law which says you can only exercise a full 48 months worth of 
benefits under any employment or any education program with VA.
    Mr. Benishek. All right. I was just looking at this 
application form, the on-line application form. So I just want 
to make sure that I am understanding.
    So in my district, there is a lot of need for like welders 
and machinists, people like that for manufacturing. And, you 
know, the employers, you know, we want to hire these people, 
but they do not have the--we do not have anybody with that 
training.
    And I am looking. I am a potential welder. I want to take a 
welding course. I know there is a welding job available. I did 
not see like welding on the list, you know what I mean, or 
machinist. I mean, I see like production occupation which I 
imagine that would probably go under there.
    But it just seems to me that in this application, I am just 
not clear. It does not seem to be that easy if you already have 
a job in mind to write it in there. I am just wondering how you 
go through the process.
    I mean, does somebody have a job in mind typically and then 
they are going for a training program for that specific job or 
are they just winging it? I mean, I just wanted to see how this 
actually works in real life. You know what I mean?
    Mr. Ortiz. Dr. Benishek, specifically for the VRAP, sir, we 
go through a specific criteria. That is the first part. If an 
individual is trying to find a training program and they--for 
example, if they do not meet the VRAP piece, but they are 
trying to find individual programs along those lines, sir, the 
one-stop shops are the ones where we can help to look at 
specific items and see what schooling or what training 
opportunities are available for that individual.
    However, if you are talking specifically on the VRAP side 
of the house, sir, we are going through the basic. If they do 
not meet--if they meet all the qualifications and they go over 
to the VA, in other words, they are eligible on our side, they 
go over to VA, there may be a training program over there.
    Ms. Hickey. So, Congressman Benishek, I will tell you if 
they have 9/11 GI Bill benefits, I can certainly pay for them, 
their training to be welders under the GI Bill effective 1 
October last year. In fact, any non-degree program, any 
certification, whether you want to, you know, drive heavy 
equipment, build highways, be a paramedic, be an HVAC which, in 
fact, one of the case examples we have permission from the 
veteran to mention is a Manassas veteran who fits this age 
group, a little on the older part of that band, and wanted to 
be an HVAC person, and so we have together processed his claim. 
He is eligible and we will pay him the VRAP fees for him to go 
to HVAC training.
    Ms. Tran. I would like to also add, I think, to your 
question about is there an opportunity for career exploration 
and there is. The my next move for veterans Web site is an 
excellent resource and tool for veterans themselves. It helps 
them identify career opportunities. They can input their MOS 
and it will show them some civilian equivalencies and then they 
could do some career exploration.
    And what we have done to that site is update it with the 
VRAP information. So we have done a crosswalk between all the 
various occupations on the my next move Web site with the VRAP 
high-demand list so that you can identify those occupations 
that are also covered under the VRAP high-demand list for 
training. And so you can do a lot of career exploration that 
way.
    Mr. Benishek. So if you are eligible and you go to a state 
unemployment office, they are going to get you into--say you do 
not have access to a computer or you are not--you got an email 
list----
    Mr. Ortiz. Yes, sir.
    Mr. Benishek [continuing]. And you go to a state 
unemployment office, they are going to be able to steer you in 
this direction?
    Mr. Ortiz. Yes, sir. If an individual does not have--one of 
the requirements to have an email, at the one-stop, we will 
actually get them an email to get all the information that they 
need back to the----
    Mr. Benishek. No, that does not really work if you do not 
have a computer.
    Mr. Ortiz. Well----
    Mr. Benishek. I mean, because, you know, in the rural area 
that I come from, giving the guy an email address is not going 
to help him communicate.
    Mr. Ortiz. You are right, sir.
    But go ahead, Kathy.
    Ms. Tran. So if you do not have a computer to identify 
where your local one-stop career center is, we actually have a 
toll-free help line that you can call that will help you over 
the phone identify where your local one-stop is and that you 
can then go there and that you would be able to access the 
internet from that site.
    Ms. Hickey. I would also offer, though, the first choice we 
would like is for them to access the one-stops because there 
are more of them. We also have made provisions in our Veterans 
Benefit Administration regional offices that are in all the 
different states and our public contact folks in those sites 
when they walk in and they deal with us, we will help them, 
assist them in that respect.
    And also our medical centers are aware of this provision as 
well and are helping us to get the word out there as well and 
all of our clinics and CBOCs as well.
    Mr. Ortiz. Congressman, the bottom line is we are working 
as hard as we can to make sure that we get the information and 
help those young men and women that need this, get the 
information and fill out the application and to not have any 
kind of barriers to make this happen.
    Mr. Benishek. Well, I hear you say that, but, I mean, like 
I have not seen anything myself in the news or, you know, on 
TV, you know, about this program. You know, if I had not been 
here on this committee, I frankly would not have known about 
it. You know what I mean?
    I mean, I did not see anything. Maybe it was directed, you 
know, personally to that person and so I would not have access 
to that since I am not a veteran in that category. But, you 
know, I have not seen any national advertising or I have not 
seen anything in my local paper. You know what I mean?
    So I am a little bit concerned about people that do not 
have access to internet or may not be plugged into the VA 
system. You know what I mean? So I am a little concerned about 
that.
    Ms. Hickey. Congressman, you are going to see more 
information about this in the month of June than you would ever 
expect to see because this is a critical component of the VA 
Detroit hiring event and in alignment with also the small 
business event is being nationally held in Detroit this year.
    So I think every paper and every community in Michigan will 
be very, very aware of what we are doing in terms of employment 
opportunities and the tools like VRAP to help do that as well.
    Mr. Ortiz. I would like to add to that, Congressman, is we 
are actually, as the secretary said, coming this June, we are 
also working with the local papers directly, especially the 
urban areas because of the fact we know that sometimes that 
information does not get out to on the general basis. So we 
are, in fact, doing that as far as DoL in conjunction with some 
of our partners also.
    Mr. Benishek. All right. I think my time is up. Thank you.
    The Chairman. Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    According to my understanding, the division of 
responsibility is basically the VA will take care of the 
training and the DoL would take care of outreach. Is that more 
or less correct?
    Mr. Ortiz. No, sir.
    Ms. Hickey. Congressman McNerney, I will tell you largely 
that DoL will handle the face-to-face interaction with the 
veteran that walks into the one-stop. And then they will handle 
the verification of employment issues.
    The outreach has been largely led by VA in cooperation and 
support by DoL helping us get to the labor sides of their 
communities and their stakeholders as well. But that is more a 
relationship there. We handle once the education claim, 
processing that claim, making sure that payment is made to that 
veteran on that side.
    Mr. McNerney. Well, that is one of my concerns about the VA 
is that I do not think the VA is in general doing enough to 
outreach not just for this program but there seems to be a 
reluctance to go to the media, to advertise on TV, to put up 
billboards. I would like to see the VA do more of that in 
general, especially in this case.
    Ms. Hickey. Congressman, I appreciate your comments and 
your questions. I will say that we have been to the media quite 
extensively, the print media and have gotten it out that way 
quite extensively.
    I do not know about billboards except that we have a lot of 
veterans in many, many, many communities across the Nation and 
it would be difficult to figure out the expense associated with 
a billboard in a single community. We would start to, I think, 
create some discussion around funding that would be a little 
bit untenable.
    We have been online. I have literally done as has the 
secretary has done on camera interviews about veteran 
employment issues and about the opportunities for education to 
help those employment opportunities. And I know that Secretary 
Ortiz's secretary has done that as well.
    So I will let him comment further on that, but we have 
reached out quite extensively through lots of media, different 
environments including 75 newspapers nationwide for those 
communities where the unemployment rate for veterans is the 
highest. We are not stopping.
    Mr. McNerney. So what kind of a budget does the VA have for 
media outreach?
    Ms. Hickey. Well, Congressman McNerney, we are actually 
trying to be good stewards here, so we are leveraging our 
current network operation. We are leveraging the good will of 
communities and newspapers and others to get this word out as 
well including all the military alumni groups. All the military 
times are carrying these for free. Many of the local newspaper 
are carrying these ads for free.
    Mr. McNerney. So, in other words, you do not have a budget 
specifically for outreach?
    Ms. Hickey. Congressman McNerney, I have not found the need 
at this point in time, especially when in very short order we 
have over 12,000 applicants and they are growing every single 
day. Yesterday it was 11,000. As the chairman well noted today 
it was 12. If, in fact, we do require, I will be happy to come 
share that need with you.
    Mr. McNerney. Okay. Mr. Ortiz, could you briefly describe 
what your one-stop centers look like? They are not mobile 
centers? They are permanent centers, right?
    Mr. Ortiz. Yes, sir. Yes, sir. Depending on the city, we 
could have anywhere between--oh, excuse me--depending on the 
state, we can have anywhere between five, ten, twenty one-stop 
career centers, sir.
    Our one-stop centers, what they are is a place where an 
individual can go, come in and get----
    Mr. McNerney. Any individual?
    Mr. Ortiz. Any individual, sir, any individual. However, 
veterans have priority of service. In other words, they have 
head of the line privileges.
    So they are able to come in and get what they need as far 
as helping to build a resume, finding out exactly what 
educational opportunities they need in order to find a job, 
what jobs are available in certain places. At times, all you 
need is somebody to be able to kind of point you in the right 
direction to get that.
    So the one-stop centers are more of a place where if you 
are looking for a job, we have the opportunity to give you the 
information that you need to help you find that job, sir, and 
some of the training also, sir.
    Mr. McNerney. Would either one of you sort of describe what 
you think a successful outcome of this program would be? How do 
you describe success in sort of general terms?
    Mr. Ortiz. I tell you, sir, my measure of success is that 
every single person that comes through this program ends up 
with a job or a career. That is my measurement to success.
    An individual coming in through our program as far as 
eligibility, getting everything that they need, going over to 
VA, getting their training and everything else, and then after 
that coming back to us and actually getting a job, that is how 
I measure success.
    Mr. McNerney. Are we going to have report statistics or 
report on the outcomes----
    Mr. Ortiz. Yes, sir.
    Mr. McNerney [continuing]. Of this program?
    Mr. Ortiz. Yes, sir, we will. And as a matter of fact, I 
will bring it over to Kathy on this one. But the bottom line, 
sir, is we are capturing all the information on who is going 
through the program, have successfully finished the program, 
and we are going to have measurements, for example, enter 
employment rate, enter retention rate, and so on so that we can 
find out specifically, one, the program is effective; two, the 
program works; and, three, we got individuals jobs.
    Mr. McNerney. Mr. Chairman, I will yield back.
    The Chairman. Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. Thank you for this 
good legislation and thank you for holding this hearing.
    I want to ask specifically is there going to be any paid 
television advertisement? And also with regard to the PSAs, I 
have not seen any PSAs lately.
    Ms. Hickey. Congressman Bilirakis, we are working with 
different folks right now for PSAs. In fact, part of the public 
service announcement to reach out to frankly some of the 
national athletic teams is part of that strategy. But at this 
point in time, we have not posted a PSA at this point in time.
    Mr. Bilirakis. Do you anticipate any paid television 
advertisements?
    Ms. Hickey. We will work for those kinds of public service 
announcements that do not require funding.
    Mr. Bilirakis. Okay. Next question. With regard to the--I 
have heard from my constituents--with regard to the unemployed 
veteran who may have exhausted his or her savings and is having 
a hard time getting back on their feet, they have concerns 
about possible up front costs, tuition cost, fees, what have 
you, a textbook cost.
    Have you looked into maybe tuition deferral until the 
veteran receives the payments?
    Ms. Hickey. Congressman Bilirakis, we have not. We have 
currently a requirement in our program that they must attest at 
the end of each month that they have attended the training and 
then we pay in arrears essentially.
    Mr. Bilirakis. Okay. I would like to follow-up with you on 
that issue.
    Thank you very much, Mr. Chairman. I yield back the balance 
of my time.
    The Chairman. Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman.
    And thank all of you for being here. Your commitment to our 
veterans is absolutely unwavering. We understand that and are 
very appreciative of it.
    And also thank you for displaying collaboration amongst 
agencies. I know it is a tough issue. It is one we always come 
back to of seamless transition. It is great to see a flow chart 
that includes several agencies of trying to work this out. And 
I know that is always a challenge. We are trying to get this 
efficiency as a part of this.
    General Hickey, you mentioned that all of the VRAP 
applicants are going to be put through a screening process.
    How long do you think that will take? Do you know how long 
that will take?
    Ms. Hickey. So at this point in time when the veteran self-
attests on the Department of Labor side, we pick that up 
directly. There is actually no manual transactions they must 
do. It comes directly to us and we have been turning those 
around very quick, in fact, 1,400 of them in seven days.
    But I will tell you when the numbers start increasing. You 
know, the numbers are smaller now. It is a little easier to do 
all those. We expect to manage to the same criteria that we do 
all of our education benefit programs.
    And so today for an original claim of any kind of nature, 
it varies between 24 and 30 days. And for a supplemental claim, 
meaning I am already in school, I already know who you are, I 
just need next month's payment, it happens very quickly in less 
than ten.
    Mr. Walz. Those are targets you set so that we----
    Ms. Hickey. Yes.
    Mr. Walz [continuing]. End up that we are going to manage 
this so that we do not have a backlog in VRAP claims then that 
we end up dealing with? You think we can stay on that? It will 
be pretty much a turnover as they enter the system?
    Ms. Hickey. We do, Congressman.
    Mr. Walz. That is great.
    Also, General, you mentioned, and it was really good to 
hear and I know Mr. Runyan mentioned that, about in the same 
breath you talked to him about you still have benefits 
available with that.
    And I know this is fairly common amongst guardsmen or 
whatever, I myself did that, I used 9 months at a time, you are 
off for a while, you use 9 months more of your time or 
whatever.
    What happens with someone who has got benefits left, does 
not qualify, but it is too small to actually get them a degree?
    That was a problem we had about not directing folks, about 
having some problems where bits and starts of education, but 
they do not have a certificate, they do not have a degree.
    How are we dealing with those?
    Ms. Hickey. So thank you, Congressman Walz, for your 
question.
    I will say that first it is important to note that this 
program does not extend indefinitely. It ends on March 31st, 
2014. So it would have to be in the provisions of that time 
frame----
    Mr. Walz. Yeah.
    Ms. Hickey [continuing]. For us to be able to do anything. 
But we do send in the letter when we send it back to say, you 
know, we denied you for VRAP, but that is because you have GI 
Bill benefits left.
    Mr. Walz. Right.
    Ms. Hickey. We do say if you run out of those ben--here is 
what you have left. If you run out of those benefits, you are 
still able to then after you have exhausted----
    Mr. Walz. Is there the potential here that we ask someone 
to use 2 months of benefits and not really have any desire to 
get much out of that and then come to you?
    I mean, this does happen. Am I wrong about this, that there 
are people that fall into that hole?
    Ms. Hickey. Congressman Walz, there is always the 
likelihood that that could happen. In that case, we would 
encourage them to immediately apply----
    Mr. Walz. Right.
    Ms. Hickey [continuing]. For VRAP benefits----
    Mr. Walz. That is great.
    Ms. Hickey [continuing]. In that process.
    Mr. Walz. Okay. But it is aware of that. You are there. 
There is communication with them. And I am not sure what more 
we can do actually at that point without changing a lot of the 
details to transfer that over. That is just a catch 22. I 
appreciate that.
    Mr. Ortiz, this one is for you. You targeted 200 
occupations veterans can receive further training in.
    Do you happen to know how many of those require Federal or 
state certification?
    I ask this because of this Vet Skills Bill that we are 
trying to promote of transferring, whether it is a, you know, 
CDL license or whether it is physician assistants to work at 
the Mayo Clinic.
    Do we have any idea on those numbers?
    Mr. Ortiz. You know what, sir? I was just looking at the 
list itself and I am not aware of those right now, sir. I will 
be more than happy to get back to you.
    Mr. Walz. That would be great because I think then what we 
are trying to match up, and I think DoD has been very open to 
this, of trying to figure out what those certifications are, 
make sure that training is available, make sure we target these 
folks. And it is something we see.
    And I guess it is blessed in different parts of the 
country. In Rochester, Minnesota, we have a 3.9 percent 
unemployment rate. The problem we have there is 275 
manufacturing jobs and they do not have qualified applicants 
because they need certain certifications, whether they would 
be.
    I think that is a perfect place for us to target our vets, 
make them top of the list, get them in. And that is what we are 
trying to do with that bill if it meshes with what you are 
doing.
    Ms. Hickey. And, Congressman Walz, that is exactly the 
target of the 1 October provision of the GI Bill last year.
    Mr. Walz. Right.
    Ms. Hickey. So we can pay for those certifications and not 
just one. If you happen to be in a tristate area, you need to 
do business across the line in Wisconsin or somewhere else with 
different licensing requirements in those states, we can pay 
for those as well.
    Mr. Walz. That is great.
    Well, again, I thank you all for the way you have taken 
this on, the aggressive lean forward on this. I am excited 
about it. I think you, you know, you understand that this is 
really important stuff and there is a lot of eyes watching you.
    And you are hearing my colleagues say we want to see this 
on TV. I told Mr. Barrow he wants to see it on a NASCAR so that 
his folks see it. Those are the things somehow that we--that it 
gets out there.
    But I appreciate. I think the spirit you have tackled this 
is exactly what we wanted to see. So I thank you.
    And I yield back.
    The Chairman. Mr. Stutzman.
    Mr. Stutzman. Thank you, Mr. Chairman.
    And thank you to you all for being here today and for your 
work as well with our veterans.
    I would like to just kind of follow-up a little bit on Mr. 
McNerney and also Mr. Bilirakis' questioning regarding the 
funding that you are going to be using for outreach.
    Mr. McNerney asked how much money do you have budgeted for 
this. There is not a line item if I understand that correctly.
    But do you have an idea of how much money you are going to 
be using for outreach, you know, collectively including, you 
know, if you are going to be using TV, if you are going to be 
using radio, PSAs, social media, all of the numerous types of 
communication that you have available to you? And then if you 
could get some sort of an idea and then how do you plan on 
tracking the success of those?
    Ms. Hickey. So thank you, Congressman Stutzman, for your 
question.
    We have not exhausted the ability for us to ask of this 
Nation and its businesses and others to, including the press 
and the media, to carry these as public service announcements 
with no cost to the government on behalf of our veterans who 
have served in harm's way and need and require us to take care 
of them now that they are coming home and getting back to work.
    When I have fully exhausted that, then I will consider 
budgetary needs. But as a good steward of the resources that 
you all give us every single day, I just am disinclined to go 
there first.
    I will say that we have funded the staff required to 
process the claims and they are teed up in also our fiscal year 
2013 budget submission as well. So we have done that and that 
is where--you know, we are working with that and have 166 
people that are processing claims or FTE that are processing 
claims, these claims as well.
    Mr. Stutzman. So if you are not using dollars that are 
budgeted and you are maximizing your efforts outside of tax 
dollars, how are you going to determine success? How do you 
know that you are reaching those veterans that need to hear 
what is available?
    Ms. Hickey. We can manage certainly and we do have metrics 
on the click rates for all the different Web sites. We have 
responses, opening of responses and forward feeding. But I will 
tell you our strategy has been a little different than simply 
getting to the actual veteran in question because we know some 
of our veterans are not online and are not to some of those 
avenues, are not even seeing us in VA for anything at this 
point in time.
    So we have found as we address the emails not to just are 
you a veteran, do you know you have these potential benefits, 
but we are saying do you know a veteran, do you know someone 
who has served this Nation that deserves this opportunity for 
this benefit, and can you please transmit this information to 
them.
    We have actually seen in this original 12,000 we have had 
apply in the last couple weeks that some of them are actually 
getting the benefit of another veteran passing along that 
information to them. We are leveraging that network.
    We are also leveraging our veteran service organizations 
who are well connected to our veteran communities across the 
Nation as well as DoD. In fact, the Defense Finance Accounting 
Service has agreed to send contact information to every single 
veteran they pay for anything including retirees and civilians, 
the information on VRAP as well.
    We know by that count how many different touch points we 
have made.
    Mr. Stutzman. Because it sounds a little bit like you are 
taking more of a bird shot approach. You are just blasting it 
out there and hoping that it hits the targets that we are 
hoping to get the message to.
    Could you talk a little bit about, you mentioned using 
professional sports as a tool to get the message out as well. 
Have you found success with that because there is an effort to 
prohibit the military from recruiting through NASCAR and other 
professional sporting events? Do you find that successful?
    Ms. Hickey. So, Congressman Stutzman, we are talking about 
a public service announcement, not a recruiting effort.
    Mr. Stutzman. Right. Correct. But I am----
    Ms. Hickey. In fact, we have the Florida Marlins, one of 
the chairman's state professional teams, has agreed to every 
Monday night at their home games to run a public service 
announcement on their trons to get to people who love that 
sports, veterans who love that sport and let them know about 
it.
    We are also in conversations with others, about five or six 
other major national sporting activities as well.
    Mr. Stutzman. And you are finding value with that?
    Ms. Hickey. We will see as soon as we execute. They have 
not started yet. We are hoping they start soon and we will 
provide them all the materials they need to do that soon.
    But I will say I have not seen a lack of response to date. 
We have been doors open less than, how many days since the 15th 
of May, less than 2 weeks. And in that 2 weeks, literally 
12,000 people, almost 1,000 people a day applying for this 
benefit.
    Mr. Stutzman. Okay.
    Ms. Hickey. We will watch it closely to see if there is any 
trends to trickle up and, if so, we will re-engage with our DoL 
partners and others to recycle and make sure that we are 
getting the word out even further.
    Mr. Stutzman. So you think there is a chance of hitting the 
45,000 application limit?
    Ms. Hickey. If history for the last 2 weeks proves itself, 
I do, sir.
    Mr. Stutzman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Secretary Hickey, do you think the VA and DoL 
are responsible for all of the 12,000 applicants or whatever 
the number is, 12, 13 thousand applicants? I mean, you speak as 
though you think your plan is what brings them all in. Is it VA 
and DoL that----
    Ms. Hickey. Chairman Miller, this is an all hands on deck 
and we have reached out to many, many stakeholders as I sort of 
listed out. And I will prevent you from having to listen to me 
list them again now.
    But it is many of our partners including Members of this 
committee who are helping us to get that word out.
    But, no, I do not believe that we are doing this by 
ourselves nor is it our--but I do believe we have the 
responsibility to you.
    The Chairman. Excuse me. You say you reached out to Members 
of Congress and that is what caused us to reach out to get the 
word out?
    Ms. Hickey. No, sir, not at all. No, Chairman Miller, not 
at all.
    The Chairman. If I could draw your attention to the budget 
hearing back on February 15th, a question after the hearing was 
submitted for response. Basically the question was regarding 
the VOW to Hire Heroes Act Program.
    Does the outreach plan include funding for a national 
advertising program?
    This was the response. ``Although the communication plan is 
currently under review by VA and DoL, we anticipate that the 
final plan will include a national advertising budget.''
    Do you have it?
    Ms. Hickey. Chairman Miller, I have not needed to have a 
budget yet for all the great advertising that has been done and 
all the help of all of our stakeholders including you----
    The Chairman. I do not know that I have ever heard an 
individual come into a committee and say they did not need a 
budget. And you have said twice now before this committee that 
you do not need a budget.
    VA is still evaluating how much of the fiscal year 2013 
outreach budget will support outreach efforts associated with 
the VOW to Hire Heroes Act of 2013.
    You had Members from both sides of the aisle ask you about 
the budget and you say you do not need one.
    Mr. Barrow.
    Mr. Barrow. Thank you, Mr. Chairman.
    I have only to add my thanks to the witnesses for your 
service and what you are all doing. And I want to add my 
support to what you all are doing.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    The Chairman. Any other questions?
    Mr. Michaud.
    Mr. Michaud. I just have one follow-up question.
    You mentioned you have the one-stop shops. Of course, a 
state like Maine and other states are very rural so it is very 
difficult for veterans to even get there to get the services 
that they need.
    And I guess what I would like to know is what are you doing 
to really access the veterans that live in real rural areas to 
make sure that they know about these particular programs?
    And a follow-up on my previous question as it relates to 
the MOST Program and programs are approved with an associate's 
or certificate is how do you determine a certificate because I 
know actually when I first started working after I graduated 
from high school, I took an on-the-job training and I got my, 
you know, certificate at the mill that I worked at, so how do 
you determine who really qualifies for a certificate to meet 
the needs that are out there?
    Mr. Ortiz. Well, sir, what we do is we go through all of 
our specific records on finding the individuals unemployed, if 
they have utilized their unemployment insurance, and any kind 
of eligibility on the Department of Labor side of the house, 
sir. That is how we determine their eligibility.
    As far as giving us information like DD214 that shows they 
are a veteran, that kind of thing is what we do on this end, 
and we say, okay, or I got to tell you if the individual comes 
in and does not have their DD214, basically they sign off and 
say, yes, I was a veteran and we take them for their word. We 
check all the other information based on their Social Security 
number and everything else.
    Once we find out that they meet the criteria on that, we 
pass it over to the VA side of the house. VA has the capability 
of being able to find out if they are a veteran because of 
DD214s and things of that nature, however.
    So the eligibility piece, we do a fairly good job of doing 
that. And both of our agencies work really hard to make sure 
that happens, not only an eligibility that they may already 
have or they may not have known that they had but also in 
making sure that that gets taken care of.
    So that takes care of that part, sir. But to answer the 
congressman's question as far as getting the information out 
there to rural areas, especially those areas, I would think, 
you know, we are in contact specifically with the workforce 
agencies and all the agencies within the states themselves.
    As an example, sir, this is the kind of language that we 
did for the Maine DoL and the VETS agency. We basically turned 
around telling them, you know, first of all, the Maine 
Department of Labor veterans' team extends our thanks in 
military service and so on.
    So we are working hand in hand not only with the one-stop 
shops but also the specific state workforce agencies and the 
communities themselves, sir.
    The fact of the matter is although you may not be able to 
get to a big one-stop, if you will, there are community efforts 
within each one of the city and state councils that are able to 
find that information and pass it on.
    The third thing and probably one of the most important 
things that I am able to have is the fact that I have LVERs out 
there, local veterans employment representatives, that actually 
reach out to employers and to veterans and let them know what 
is going on, to advise them of the different opportunities 
available. Plus I also have a state director in each one of the 
states that helps it.
    Go ahead, Kathy.
    Ms. Tran. I would also just like to clarify the eligibility 
questions that the Department of Labor is responsible for for 
VRAP.
    I think when Junior was mentioning, you know, whether or 
not you are a vet and if you have a DD214, that is if you come 
into one-stops for other services. But as part of VRAP, we 
determine, you know, we determine eligibility around age for 35 
to 60 if you are unemployed and if you have participated in a 
Federal training or education program in the last 180 days.
    The other resource I do want to mention to folks who are in 
rural areas and cannot physically access a one-stop, again, is 
that toll-free help line that I mentioned earlier. It is an 800 
toll-free number. Anybody can call and it will just--the 
operator who answers will help identify various programs, 
whether they are ours or other related social services that you 
might be eligible for or interested in including VRAP. So that 
is part of our script, that we are sharing that information 
that way as well.
    Mr. Michaud. Well, on the first part of that question was 
more to who is qualified not as an individual but who is 
qualified to provide the training for those particular programs 
because that is the concern that I have is who is qualified for 
the training, because when you talk to a lot of businesses, and 
I will get back to the extension partnership program, they 
guarantee that they will have a job once they finish the 
training program?
    So my concern is whether it is VA or DoL saying, well, you 
know, your program, your certificate is no good, you know, we 
need something else, but, yet, they might actually be able to 
provide a job for a veteran. So that is my big concern is the 
eligibility qualification for the training portion of it.
    Mr. Ortiz. Sir, I got to tell you I think my understanding 
is, sir, that once the individual goes into, especially VRAP, 
they go into a program, that the program that they are going 
into, and correct me if I am wrong, Secretary, is the program 
they go into is usually a program that is certified by the VA 
that they are--that when they come out, we will give them what 
they need or at least the tools they need to be able to find a 
job.
    Ma'am.
    Ms. Hickey. So, Congressman, the actual provision is that 
the state approving agencies certify that the training is good 
and competent. The schools are all doing, and whether they are 
degree schools or non-degree schools, are all doing appropriate 
things to resource the veterans' training environment.
    So if they are approved by a state approving agency, then 
we pay the requirement.
    Mr. Ortiz. And along those same lines, sir, I mean, and my 
team, I happen to have a great team behind me which helps me 
out, if the law requires that the training provided by a 
community college or a technical college is what is needed in 
order to--that is the certification that they need in order to 
find a job, sir.
    The Chairman. Thank you, Mr. Michaud.
    Thank you very much to both of you for being here today.
    Again, any of the comments and questions that we made are 
just to help in trying to get the program running better. I 
think this committee feels that a good job has been done to 
date.
    There are always going to be, as Mr. Ortiz says, some 
hiccups somewhere down the road, but let's make sure that we do 
the very best that we can for those unemployed veterans that 
are out there and helping them access this training.
    I do want to say before we adjourn, take a moment that on 
June 1st, which is Friday, I guess that is tomorrow, is the 
25th anniversary of the Montgomery GI Bill named after the 
former chairman of this committee, Sonny G.V. Montgomery. The 
bill was the premier education program for a generation of 
veterans and it continues to serve us today as we use it for 
the framework of the VRAP.
    Therefore, I think it is important that we commemorate its 
use by millions of veterans around this country. So I want to 
ask and invite each of the Committee Members, if they will, to 
join me in issuing a bipartisan press release on this about the 
program and its author. And if you would provide a short 
statement to Amy Mitchell, our communications director, we will 
include in the release.
    And with that, I ask unanimous consent that all Members 
would have five legislative days to revise and extend their 
remarks and add any extraneous materials to this hearing. And 
hearing no objection, so ordered.
    And I want to thank everybody for attending today, and we 
are adjourned.
    [Whereupon, at 11:49 a.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

               Prepared Statement of Chairman Jeff Miller
    Good morning to everyone.
    We just spent last weekend honoring the Nation's defenders who are 
no longer with us. Now it is time for us to focus on those who still 
need our help in securing a good job, and I welcome Under Secretary 
Hickey and Deputy Assistant Secretary Ortiz today. I am eager to hear 
how the Department of Veterans Affairs and Department of Labor are 
progressing in meeting the goals of the VOW to Hire Heroes Act of 2011.
    The VOW Act is a bipartisan, bicameral effort to reduce 
unemployment among veterans. While every provision in the law is 
important, I believe the centerpiece of the Act is what is being called 
the Veterans Retraining Assistance Program or VRAP (VEE- RAP). Of the 
approximately one point seven billion cost for the bill, which was paid 
for, one point six billion was spent to allocate up to a year of GI 
Bill benefits for nearly one hundred thousand unemployed veterans 
between the ages of thirty five and sixty. The balance funded Chairman 
Murray's vocational rehabilitation provision and the tax credit 
suggested by the President.
    The VOW Act is an excellent example of what we can do when we work 
together, and I thank the Members on both sides of the aisle for their 
support and continuing interest in the Act's success.
    Today, we are going to hear from Senior Officials tasked with 
implementing all the provisions of the law. I have asked them to 
concentrate primarily on VRAP. I am looking forward to hearing how they 
are setting the stage for a successful launch on July 1.
    While I am impressed by the level of effort being made by program 
level-staff at both departments, I am concerned that not enough is 
being done by either cabinet secretaries, or the President himself, to 
promote this benefit.
    Getting the message out about this opportunity is critically 
important to putting unemployed veterans on a path to a job in a high-
demand field.
    Clearly, aggressive promotion by the nearly three thousand One Stop 
employment centers are the key to filling the ninety nine thousand 
training slots authorized by the VOW Act. Let me give you just one 
example of why I am concerned that despite VA's significant outreach 
efforts, for which I commend them, problems are still arising. Staff 
was contacted by a community-based organization in Georgia about what 
appears to be a lack of effort to get the program started.
    Shortly after passage of the VOW Act, the organization contacted 
the Augusta One Stop Employment Center about how to enroll unemployed 
vets in the program. They asked again in mid-March and the DVOPS and 
LVERs were still not aware of the program. Two weeks later, Augusta 
told them the Georgia Department of Labor was not aware of VRAP. In 
early April, both the Georgia and South Carolina Departments of Labor 
stated they were waiting for policy from DC. In late April, there still 
appeared to be little understanding of how the program would work. It 
appears that finally, on May 11th, 2012, a mass email from VA was 
released detailing how the program would be implemented, only 4 days 
later on May 15th.
    Obviously, if that is typical of the level of awareness at the One 
Stop Centers, we have big problems. Secretary Ortiz, unless your 
Federal staff here in DC and in the states are contacting the disabled 
veteran outreach program specialists and local veteran employment 
representatives in the One Stop Centers, there is no way you are going 
to know whether the word is getting out and how the One Stop Centers 
intend to fill the training slots. I truly hope the case I just 
summarized is an isolated case, but I am not convinced that it is.
    Having said that, I am pleased to see that over eleven thousand six 
hundred applications have been received so far, meaning that we are 
well on our way to filling all of the forty five thousand slots paid 
for in the VOW Act for the remainder of this fiscal year.
    I also encourage each of the Members to make a strong effort in 
their districts to get the word out about VRAP so that we see the 
unemployment rate among veterans in their prime earning years continue 
to decrease.
    I want to share a story about one my constituents, Mr. Todd C. 
Buchanan. Mr. Buchanan is a 35 year old veteran of the U.S. Navy. He 
learned about the VRAP program through an advertisement that the local 
one-stop ran in the local newspaper. He was excited to learn of this 
``second chance'' for Veterans, as his GI Bill benefits had recently 
expired. In response to the newspaper advertisement, Mr. Buchanan 
scheduled an appointment to review his options with a local Veterans 
Employment Representative.
    The veteran and veterans' employment representative cross-walked 
the VRAP high demand occupations with the Okaloosa and Walton counties 
fastest growing occupation list, and considered the veteran's aptitude 
and interest. Mr. Buchanan was enrolled through VA's online application 
and will register at the Choice Technical Center for a welding 
certificate.
    I submit to the Committee that Mr. Buchanan is the type of veteran 
that this program is meant to help, and hopefully it will provide him 
the training he needs.
    This bill passed with broad bipartisan and bicameral support and we 
owe it to taxpayers and veterans to ensure it is implemented properly.

                                 <F-dash>
      Prepared Statement of Hon. Corrine Brown, Democratic Member
    Thank you Mr. Chairman for holding this hearing on the Veterans 
Retraining Assistance Program.
    I welcome this opportunity to hear what preparations have been done 
so far by the Department of Veterans' Affairs (VA) and the Department 
of Labor (Labor) to implement the Veterans Retraining Assistance 
Program. I hope that both agencies are working together because the 
start date of July 1, 2012 is right around the corner. We need to be 
proactive in marketing this program and identifying pitfalls that could 
derail this program.
    The retraining program is limited to 45,000 participants from July 
1, 2012, through September 30, 2012, and 54,000 participants from 
October 1, 2012, through March 31, 2014.
    Since money for retraining programs is very difficult to find these 
days I hope that both agencies understand how important it is that we 
place a veteran in every slot. This program will run for a short period 
and we need to make sure we make the most out of the limited time that 
we now.
    The Bureau of Labor statistics reports that in 2011 about 5.9 
million veterans had served on active duty from the Gulf War era I to 
the Korean War. Therefore, I expect Labor and VA to find more than 
enough veterans to fill all the slots that they will have available. It 
would be a tragedy if we do not help veterans take advantage of this 
opportunity.
    I know that employees from VA and Labor were here last week to 
brief Committee staff on key milestones and current status. I 
appreciate everyone coming here again to answer more questions.
    Since the retraining program started accepting applications I would 
like to know if there have been any problems. The key thing that I am 
looking for today from both agencies is honesty on where the program 
stands today and assurance that all problems are being resolved. Do not 
wait until the last minute to tell us that there are problems that 
would derail this program. We need to know in a timely fashion if there 
are any problems with the program roll out and if any changes are 
needed to make sure this program is successful.
    The Bureau of Labor statistics reports that the overall 
unemployment rate for veterans is 8.3 percent for 2011. The 12 months 
that veterans are now eligible for should be a springboard to better 
employment in this very difficult job market. The Department of Labor 
has listed 210 high demand occupations for the Veterans Retraining 
Assistance Program.
    I would like to ask that the Department of Labor keep an open mind 
if opportunities arise to increase the number of high demand 
occupations. In this very poor economy we should allow veterans to 
pursue all worthwhile occupations that lead to gainful employment.
    The VOW act includes the extension of tax credits that were a key 
part of the President's agenda. The act expands the definition of 
qualified veteran in the Work Opportunity Tax Credit (WOTC) to help 
spur veteran hiring in the private sector by giving employers a tax 
credit. The VOW act also extends the current categories for veterans 
receiving Supplemental Nutrition Assistance Program (SNAP) benefits.
    The President should be commended for his leadership and continuing 
hard work in getting veterans hired.
    Thank you Mr. Chairman I look forward to hearing from the witnesses 
here today.

                                 <F-dash>
           Prepared Statement of The Honorable Allison Hickey
    Good morning, Chairman Miller, Ranking Member Filner, and Members 
of the Committee. I appreciate the opportunity to discuss the actions 
taken by the Department of Veterans Affairs (VA) to implement the 
provisions in title II of Public Law 112-56, the VOW to Hire Heroes Act 
of 2011. I am accompanied today by Mr. Curtis L. Coy, Deputy Under 
Secretary for Economic Opportunity, VBA.
    My testimony will discuss implementation of the relevant sections 
of the legislation, with particular emphasis on section 211. I will 
also review VA's outreach activities aimed at enrolling individuals in 
the Veterans Retraining Assistance Program (VRAP) and promoting the 
enhanced services provided by VA's Vocational Rehabilitation and 
Employment (VR&E) program. VA is committed to successfully executing, 
in collaboration with other agencies and stakeholders, all provisions 
of the law for which we have responsibility.

Section 211_VRAP

Implementation

    VA and the Department of Labor (DOL) collaboratively developed the 
VRAP application process and the requirements for the information 
technology (IT) system changes to support this process. To efficiently 
leverage existing systems, VA modified its application for VA education 
benefits for use by the VRAP applicants. The VRAP application is 
available online at www.benefits.va.gov/VOW, a Web site developed 
specifically for portions of the VOW to Hire Heroes Act. This site can 
be accessed through eBenefits, the GI Bill Web site, DOL Web sites, and 
numerous other Web sites. Additionally, Veterans can visit their local 
DOL One-Stop Career Center locations for application assistance. 
Applications can be submitted through VA's Veterans' Online Application 
(VONAPP) Web site. To be eligible for participation, DOL must determine 
that the applicant is unemployed, not enrolled in any Federal or state 
job-training program, and is between the ages of 35 and 60. VA verifies 
the applicant's Veteran status and type of discharge, and confirms that 
the applicant has no other VA education benefits available for use, and 
is not in receipt of compensation for a service-connected disability 
rated totally disabling by reason of unemployability. After eligibility 
has been established, the applicant identifies his or her intended 
high-demand occupation category and applicable training institution. 
Information about the high-demand occupations, identified by DOL, is 
available on VA's VOW to Hire Heroes Web site as well as DOL's Web 
site.
    VA began accepting VRAP applications on May 15, 2012, earlier than 
our original deadline of June 1. In April, VA education claims 
personnel received training necessary to process VRAP applications and 
provide notifications of eligibility decisions to applicants through 
issuance of certificates of eligibility. Claims examiners will use 
existing systems to process claims and follow similar procedures to 
those for other benefit programs. VA has provided instruction on 
aspects of the program that differ from existing benefits. VA's claims 
processing IT systems were modified to process and issue payments to 
VRAP participants. Once the school certifies enrollment for the VRAP 
student, his or her claim will be processed in the same manner as 
Montgomery GI Bill claims, using the Benefits Delivery Network. VA will 
review daily reports on the number of approved participants to ensure 
compliance with the parameter of the law to approve only 45,000 
applications prior to October 1, 2012.
    To ensure this program's success, VA and DOL staff and leadership 
continue to collaborate and develop implementation strategies, share 
information, and participate in biweekly meetings to track progress. 
Internally, VA staff and project managers meet daily to discuss 
implementation status and ensure we remain on track to meet the July 1, 
2012, implementation date.

Outreach

    A comprehensive outreach program was developed to successfully 
launch and implement VRAP. Reaching the target population of 35 to 60 
year old unemployed Veterans presents challenges. According to the 
latest data from the Bureau of Labor Statistics, approximately 400,000 
unemployed Veterans are between the ages of 35 and 60. If VA and DOL 
are successful in signing up 99,000 Veterans, then one in four 
unemployed Veterans in this age range will participate in VRAP. A 
centralized system to identify eligible Veterans does not exist. 
Therefore, VA and DOL are working with their numerous stakeholders to 
reach eligible Veterans, including: other Federal, state, and local 
government entities; Veterans service organizations; non-profit 
organizations; military associations; military alumni associations; and 
private companies. The central component of this outreach plan is the 
VOW Web site. Outreach materials and postings on various Web sites 
direct interested Veterans and organizations to the VOW Web site for 
additional information. Frequently asked questions, employer 
information, and VOW fact sheets are also available on the web page.
    VA and DOL are working collaboratively to ensure all DOL One-Stop 
Career Center office staff have the information and tools they need to 
successfully assist Veterans in applying for VOW benefits. VA will 
continue to work with DOL to reach as many Veterans as possible.
    Prior to opening the VRAP application period on May 15, information 
about the VOW to Hire Heroes Act was posted on the Web sites of 
numerous organizations, including: DOL, Army (MyArmyBenefits), 
America's Job Exchange, Military.com, American Legion Department of 
Illinois: First Division, Together We Served, Vets Rock, and Blue Star 
Families.
    VA developed an outreach and communication strategy that focuses on 
several areas. This strategy leverages multiple outreach methods to 
ensure that VA reaches the target population of 35-60 year old 
unemployed Veterans. We have implemented a comprehensive mix of web-
based outreach and direct stakeholder engagement to reach Veterans who 
may not use the internet as their primary method of learning about 
benefits.

Emails and Letters

    Since March 2012, VA has emailed individuals and groups with the 
potential to reach over four million Veterans. VA emailed: 121,000 
Veterans and 2,700 employers who use VetSuccess.gov, over 16,000 
registered VA4Vets users, and over 80 non-profit organizations. We have 
also posted a message on the eBenefits message center. The results have 
been encouraging. For example, the Defense Finance and Accounting 
Service (DFAS) will distribute VRAP information to all Servicemembers, 
National Guard and Reserve members, military retirees, and Federal 
civilian employees.
    VA used data from the Bureau of Labor Statistics to identify areas 
with the highest Veterans' unemployment. VA emailed the local 
government officials in the 100 counties with the highest Veterans' 
unemployment to request their assistance in sharing the message about 
the VRAP program and VA's acceptance of applications starting on May 
15, 2012.
    This month, VA initiated a VRAP email campaign to individuals who 
contacted VA via our electronic internet inquiry system within the past 
6 months. VA also developed an email subscription that allows 
individuals to sign up to receive emails regarding the program. As of 
May 15, 2012, VA delivered over 460,000 emails, which were viewed or 
opened by 23 percent of recipients (which is 12 percent above the 
average ``open rate'' according to MailerMailer<SUP>'</SUP>). 
Additionally, we reached out to several direct-mail organizations to 
explore the potential for limited direct-mailings to Veterans.

Social Media

    VA is leveraging its social media to reach the target population. 
As of May 14, we have posted 15 Facebook messages on the Post-9/11 GI 
Bill, VBA, and VA Facebook pages to publicize information about VRAP. 
The posts provide general program information and salary outlooks for 
specific high-demand career fields. These posts yielded over 1,600 
``shares,'' 1,200 ``likes,'' and 250 ``comments.'' VA has posted 13 
tweets on the VA and VBA Twitter accounts, which resulted in 174 
``retweets'' and 37 ``favorites.'' Also, on May 10, 2012, VA posted a 
blog entitled ``Coming Soon: A Program to Retrain Vets.'' Additionally, 
on May 15, the day VA began accepting VRAP applications, the White 
House's Joining Forces Team sent out a blog notice that reached almost 
1.4 million individuals.
    VA met with representatives from Google and is developing plans for 
advertisements on the Web site in June. We posted VRAP information on 
Web sites of more than 20 LinkedIn groups that include about 235,000 
members. The groups included military networking groups, Veteran 
groups, and industry networking groups.

Media and Partnerships

    Several newspapers and media outlets have or will publish free of 
charge VRAP advertisements. Publications include: Federal, Air Force, 
Army, Navy, and Marine Corps Times; the Fayetteville Observer (Fort 
Bragg); and the San Antonio Express News. These papers have a 
readership of over 300,000 subscribers, which does not include the free 
Military Times publications provided to military units. Additionally, 
many companies have agreed to include VRAP information on their Web 
sites and in their newsletters.
    VA is working with employers and community organizations to 
distribute information about VRAP. VA routinely monitors media coverage 
of Veterans' employment to find and post information regarding upcoming 
job fairs and events on VA Facebook pages and Twitter accounts. In 
recent months, VA has highlighted VRAP in a variety of interviews and 
articles related to Veteran unemployment. Media outlets publishing 
information from VA include: the Atlanta Journal, USA TODAY, the Wall 
Street Journal, and the Pittsburgh Gazette.
    VA is using available internal and external mechanisms to reach as 
many unemployed Veterans as possible. VA held numerous meetings and 
discussions with stakeholders, such as the United States Automobile 
Association, LinkedIn, Armed Forces Services Corporation, and the 
National Governors' Association. VBA collaborated with VA's Center for 
Faith-based and Neighborhood Partnership office, which will outreach 
and provide program information to over 1,200 community organizations, 
and Veterans service organizations, Veterans alumni groups, non-profit 
organizations that serve Veterans, and community organizations in 
states with high unemployment rates. VA asked State Approving Agency 
partners and over 900 vocational rehabilitation contract counselors to 
carry our message. VA field staff continue to participate in local job 
fairs, and we have placed particular emphasis on the U.S. Chamber of 
Commerce's Hiring Our Heroes Job Fairs. VA will also conduct a three-
day Hiring Fair and Open House from June 26-28, 2012 and its annual 
National Veteran Small Business Conference and Expo.
    All of VA's outreach efforts are focused on distributing 
information about VRAP and directing individuals to the VOW Web site 
for additional information. Prior to VA accepting VRAP applications on 
May 15, there were almost 17,000 visitors to the VOW Web site, and over 
13,000 unique individuals signed up for VRAP emails.

Section 222_Individualized assessment on equivalence between military 
        occupational specialty (MOS) and qualifications for private 
        sector employment

    The Department of Defense (DoD) will provide the individualized 
assessments to Servicemembers and share the assessments with DOL and VA 
following the study that DOL expects to begin by October 2012 and 
complete in November 2013. VA's VR&E Service is collaborating with DoD 
and DOL on the scope of the study. VA uses the assessments to develop 
education and employment goals for transitioning Servicemembers who 
have applied for education or VR&E benefits. This provision of the law 
will enhance our beneficiaries' ability to meet their academic and 
career objectives.

Section 231_Two-year extension to provide Vocational Rehabilitation to 
        Servicemembers

    A memorandum of understanding (MOU) between VA and DoD is in place 
that covers this 2-year extension, and VR&E Service has issued 
procedures for immediate implementation. This MOU covers VR&E 
counseling for Servicemembers transitioning through the Integrated 
Disability Evaluation System (IDES) at designated locations. Early 
access to VR&E services and assistance offers Servicemembers resources 
that aid their recovery, transition, and reintegration into civilian 
life. Eligible Servicemembers are referred to VR&E if they are: 
evaluated by a DoD or VA physician and are determined to have a severe 
injury or illness that could cause their referral into IDES; assigned 
to a Service's Wounded Warrior Program and are participating in the 
Education and Employment Initiative (E2I) program; or being processed 
through IDES and referred to a Physical Evaluation Board. The IDES 
project plan, which provides for 110 VR&E counselors to be stationed at 
selected IDES sites in FY 2012, will enable aggressive implementation 
of this section. VR&E Service issued guidance and began providing these 
services in February 2012 at Fort Campbell, Kentucky; Nellis Air Force 
Base, Nevada; and the Naval Medical Center in San Diego, California. 
Additional locations have been identified, and VA is coordinating with 
DoD to secure the space needed for full implementation.

Section 232_Expand VA authority to reimburse salaries of Veterans' 
        participating in a VR&E program

    Section 232 of the bill allows VA to expand the Special Employer 
Incentive (SEI) program to Veterans participating in a VR&E program, 
even if the Veteran has not completed a training program under VR&E. 
VR&E issued procedures and staff training to implement this provision 
in January 2012. Employers who hire Veterans will receive up to a 50 
percent reimbursement of the Veteran's salary during the SEI program, 
which typically lasts up to 6 months, while also receiving supplies, 
equipment, uniforms, and any necessary accommodations. VA is 
responsible for determining eligibility, and participants have an 
increased chance of being hired for permanent employment. Veterans 
learn valuable skills in practical settings while receiving one-on-one 
support from their Vocational Rehabilitation Counselor or Employment 
Coordinator.

Section 233_Additional VR&E services to Veterans with exhausted rights 
        to unemployment benefits

    VR&E has worked with DOL to identify and conduct outreach to 
Veterans who may qualify for an additional 12 months of vocational 
rehabilitation services under section 233 of the VOW to Hire Heroes 
Act. VR&E instructed field personnel to begin accepting referrals and 
applications in February 2012. VR&E issued final procedures and 
training to the field in May 2012, so that individuals may begin 
rehabilitation programs by June 1, 2012, the effective date of this 
provision.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other Members of the Committee may have.

                                 <F-dash>
           Prepared Statement of Mr. Ismael ``Junior'' Ortiz
    Good morning Chairman Miller, Ranking Member Filner, and 
distinguished Members of the Committee. Thank you for the invitation to 
participate in today's hearing on ``Reviewing the Implementation of 
Major Provisions of the VOW to Hire Heroes Act of 2011.'' As I stated 
when I testified before the Subcommittee on Economic Opportunity in 
December, the VOW to Hire Heroes Act of 2011 is an important part of 
the Administration's efforts to ensure that America fulfills its 
obligations to our returning Servicemembers, Veterans, and their 
families.
    President Obama, Secretary Solis, and Secretary Shinseki are 
committed to serving these brave men and women as well as they have 
served us. In support of this goal, the Department of Labor (DOL) is 
working to implement the VOW Act along with other new initiatives to 
train, transition and employ Veterans. These initiatives are in 
addition to the core programs DOL has been administering for decades, 
providing Veterans and transitioning Servicemembers with critical 
resources and expertise to assist and prepare them to obtain meaningful 
careers, maximize their employment opportunities, and protect their 
employment rights.
    DOL is fully committed to serving our transitioning Servicemembers, 
Veterans and their families through our current programs as well as new 
initiatives like VRAP. DOL ensures that Veterans, disabled Veterans and 
eligible military spouses receive priority of service by the staff of 
all DOL-funded employment and training programs including the many 
programs operated out of the approximately 2,800 One-Stop Career 
Centers (One-Stop Centers) that serve as the cornerstone for the 
Nation's workforce investment system. As you know, much of the 
Department's work with Veterans and other eligible individuals is 
concentrated on maximizing the employment and training opportunities 
developed through strong relationships with the State Workforce 
Agencies. DOL has decades of experience working with the employer 
community, at both local and national levels, to recruit, train, and 
find employment for Veterans and transitioning Servicemembers.
    As a result, we are able to provide millions of Veterans with the 
training; assistance and support they need to find and retain 
employment. During the last program year alone (PY 2010), DOL served 
over 1.7 million Veterans in various employment and training programs 
with strong outcomes. For instance, the annual outcome data reported on 
December 31, 2011 shows that nearly 570,000 Veterans who were 
unemployed at the time of their program participation found employment 
within 90 days of program completion.
    The VOW Act has enhanced and added to the programs and services DOL 
provides to Veterans, transitioning Servicemembers and their families. 
Since the legislation was enacted in November of 2011, DOL has been 
working diligently to implement the provisions as I will explain 
section by section below:

VETERANS RETRAINING ASSISTANCE PROGRAM

    Section 211 of the VOW Act established the Veterans Retraining 
Assistance Program for unemployed Veterans aged 35 to 60. The VRAP, 
which entitles eligible Veterans to retraining assistance for up to 12 
months when they pursue a qualified program or training, must be up and 
running no later than July 1, 2012. The VOW Act specifies that the 
Department of Veterans' Affairs (VA) and DOL will jointly administer 
the process for determining Veterans' eligibility for VRAP. 
Specifically, DOL is responsible for determining applicants' initial 
eligibility based on age, employment status, and previous participation 
in other job training programs. Following DOL's determination, the VA 
is required to certify applicants based on several additional criteria, 
such as the conditions of an applicant's discharge from active duty 
service and his or her eligibility for other forms of assistance. Other 
DOL-specific requirements include identifying the high-demand 
occupations that will be the focus of VRAP training, and contacting 
Veterans within 30 days of completing or terminating the VRAP training 
to inform them of the employment placement services that are available 
to them. The VOW Act also requires DOL to work with VA to establish a 
process for resolving appeals of eligibility determinations made by the 
agencies.
    We are well on our way to fully implementing this program. Early 
on, DOL established the necessary Memorandum of Agreement with VA to 
execute this program. DOL then identified over 200 high-demand 
occupations in which Veterans could be trained. These occupations were 
selected because they meet the VRAP training criteria and are projected 
to have high growth rates and/or large numbers of openings based on 
Bureau of Labor Statistics employment projections for 2010 to 2020 
(more than 10,000 national openings and above-average projected growth 
rates of greater than 14.3 percent over the period). In fact, the more 
than 200 high-demand occupations represent 14,796,700 total projections 
over this period. Additionally, DOL has enhanced the My Next Move for 
Veterans Web site to display VRAP information during online career 
searches, which allows VRAP applicants an opportunity to explore and 
learn about their career options. After working closely with VA to 
create an online application process, we began accepting applications 
on May 15, 2012.

Outreach and Technical Assistance

    DOL has been engaged in an extensive outreach effort in 
collaboration with the VA to inform eligible Veterans, the public 
workforce system, Veterans Service Organizations (VSOs), and other 
stakeholders on VRAP. These efforts include the creation and 
dissemination of fact sheets, press releases, blog entries, email 
alerts, flyers, and other communication techniques. In addition, both 
the Veterans' Employment and Training Service (VETS) and Employment and 
Training Administration (ETA) have issued guidance to their respective 
constituencies. VETS issued Veterans' Program Letter 7-12, and ETA 
issued Training and Employment Notice 43-11, which provided information 
about VRAP to the public workforce system. We will make additional 
information available as procedures and protocols for implementing the 
program are finalized. DOL has strongly encouraged State Workforce 
Agencies, Disabled Veterans' Outreach Program (DVOP) specialists and 
Local Veterans' Employment Representatives (LVERs) funded by VETS 
through the Jobs for Veterans State Grants Program, and other workforce 
system stakeholders, to assist potentially eligible Veterans who come 
into a One-Stop Career Center, and to reach out to potentially eligible 
Veterans who have previously received services through the Wegner-
Peyser Act, Workforce Investment Act (WIA), or from DVOPs or LVERs. 
DOL's regional offices will maintain contact with the states, DVOPs, 
and LVERs, as well as support outreach by providing technical 
assistance, information about possible outreach opportunities, and 
informal check-ins.
    A DOL and VA webinar was held on May 9, 2012 to inform and train 
the public workforce system on the VRAP program. The webinar included 
398 attendees, and over 4,800 people have viewed the archived webinar 
to date. Topics included: an overview of the VRAP program, the 
eligibility determination process from both the DOL and VA perspective, 
a discussion of the high demand occupations for VRAP, a demonstration 
of changes to the Web site My Next Move for Veterans, which included 
changes to sync with the VRAP program and a walk-through of the online 
application by VA staff. DOL also sent out an email push to more than 
4,000 members of the workforce system. The audience of the webinar and 
email push included: State Directors of Veterans Employment and 
Training, State Labor Commissioners, State Veterans Agency Directors, 
State WIA Liaisons, State Workforce Administrators, State Veterans 
Coordinators, members and staff of local Workforce Investment Boards, 
One-Stop Career Center Managers, ETA Regional Administrators, and VETS 
Regional Administrators.

TRAINING AND REHABILITATION FOR VETERANS WITH SERVICE-CONNECTED 
        DISABILITIES WHO HAVE EXHAUSTED RIGHTS TO UNEMPLOYMENT BENEFITS 
        UNDER STATE LAW

    Section 233 of the VOW Act amends current law to allow individuals 
with service-connected disabilities who have exhausted Unemployment 
Insurance (UI) benefits under state law to seek assistance from 
additional rehabilitation programs specified in the legislation as of 
tomorrow, June 1, 2012. The VA is primarily responsible for the 
administration of this provision; however, DOL had a key role in 
providing VA with input to developing the eligibility determination 
process. The agreed approach for determining that an individual has 
exhausted regular state UI benefits is that VA will send a letter to UI 
agencies with the applicant's information to request validation of 
exhaustion of benefits along with a release of information form 
indicating the applicant's consent. To determine that the individual 
has no future entitlement to regular state benefits, they will be 
instructed to apply for benefits and receive a denial. This process 
allows for a review of all recent employment that may trigger new 
benefit entitlement. It is also used for other benefit programs that 
require information related to UI, such as the Supplemental Nutritional 
Assistance Program. The Department is in the process of issuing an 
Unemployment Insurance Program Letter to the states that describes the 
program and shares VA's approach to validating both exhaustion of 
regular UI benefits and/or no new/additional entitlement to state UI 
benefits.

MANDATORY PARTICIPATION OF MEMBERS OF THE ARMED FORCES IN THE 
        TRANSITION ASSISTANCE PROGRAM (TAP) OF DEPARTMENT OF DEFENSE

    Section 221 of the VOW Act requires mandatory participation, with 
some exemption authority, in the Employment Assistance, Job Training 
Assistance, and Other Transitional Services under title 10 United 
States Code section 1144, better known as the TAP Employment Workshop. 
While this requirement is the responsibility of the Secretaries of 
Defense and Homeland Security, the Secretary of Labor is required under 
this section to enter into a detailed agreement to carry out this 
section with the aforementioned Secretaries and the Secretary of VA. 
The department leads are in the process of redrafting the Memorandum of 
Agreement (MOA) to ensure there is clear understanding and guidance as 
to how the mandatory participation requirement will be carried out.

INDIVIDUALIZED ASSESSMENT FOR MEMBERS OF THE ARMED FORCES UNDER 
        TRANSITION ASSISTANCE ON EQUIVALENCE BETWEEN SKILLS DEVELOPED 
        IN MILITARY OCCUPATIONAL SPECIALTIES AND QUALIFICATIONS 
        REQUIRED FOR CIVILIAN EMPLOYMENT WITH THE PRIVATE SECTOR

    Section 222 of the VOW Act requires DOL, in consultation with the 
VA and DoD, to enter into a contract with an organization for a study 
that identifies equivalence of skills between military and civilian 
employment. DOL currently has online tools that ``identify 
equivalences'' by enabling Veterans to enter a military occupation code 
or title and look up related information on related civilian careers 
and on related job openings by geographic area. DOL has also received 
information from DoD regarding their ongoing skills assessment 
activities.
    Our plan is to leverage current DoD research already underway to 
identify additional equivalencies and enhance existing online tools to 
support individualized assessments. We also plan to expand the work 
being conducted by DoD to identify civilian equivalencies for 
additional military occupations not included in the current DoD study.

TRANSITION ASSISTANCE PROGRAM CONTRACTING

    Section 223 of the VOW Act requires DOL to contract out TAP 
counseling, employment services, and assessments at all locations by 
November 21, 2013. The contract specifications and statement of work 
have been drafted to meet this requirement. DOL published a Request for 
Information (RFI) on May 14, 2012, to gather information to help make a 
decision on what steps to take next. As DOL testified before the 
Subcommittee on Economic Opportunity last year, we are in the process 
of changing over to an all-contract facilitator staff for the DOL 
Employment Workshop and believe we are on track to meet this 
requirement by the deadline. In the interim, the VETS-funded state 
employees currently facilitating the workshops are being trained in 
delivering the new curriculum. Professional contract facilitators will 
be trained in delivery of the new curriculum once the contract is in 
place.

IMPROVED ACCESS TO APPRENTICESHIP PROGRAMS FOR MEMBERS OF THE ARMED 
        FORCES WHO ARE BEING SEPARATED FROM ACTIVE DUTY OR RETIRED

    Section 225 of the VOW Act permits members of the armed forces who 
are eligible for TAP to participate in Registered Apprenticeship or 
Pre-Apprenticeship programs. DOL believes there are numerous 
opportunities for Veterans in the Registered Apprenticeship system and 
is exploring potential connections to the United States Military 
Apprenticeship Program (USMAP) and Guard Apprenticeship Program 
Initiative (GAPI). Last month, we created a VA/DOL flyer outlining 
benefits available to transitioning Servicemembers under the VOW Act 
that includes language referencing TAP eligible Servicemembers' ability 
to participate in either the Registered Apprenticeship or Pre-
Apprenticeship programs. In addition, we have established a working 
group of the Secretary's Advisory Committee on Apprenticeship 
consisting of employer, labor and public representatives from the 
Registered Apprenticeship Community to identify options to improve 
access for Veterans to Registered Apprenticeship programs.

COLLABORATIVE VETERANS' TRAINING, MENTORING, AND PLACEMENT PROGRAM

    Section 234 of the VOW Act amends chapter 41 of title 38 U.S.C. to 
require DOL to establish a collaborative Veterans training, mentoring 
and placement grant program. More specifically, the Secretary would 
award grants to not more than three eligible nonprofit organizations 
for periods of 2 years to provide training and mentoring for eligible 
Veterans who seek employment. While $4.5 million was authorized to be 
appropriated for the period consisting of FY 2012 and 2013, funds were 
not appropriated for this new program. Although VETS cannot carry out 
Section 234 at this time, on April 30, we issued a Solicitation for 
Grant Applications for 2012 Veterans' Workforce Investment Program 
grants. These VWIP grants are similarly intended encourage innovative 
practices, including mentoring.

ENHANCEMENT OF DEMONSTRATION PROGRAMON CREDENTIALING AND LICENSING OF 
        VETERANS

    Section 237 of the VOW Act amends section 4114 of title 38 U.S.C., 
requiring VETS to conduct a demonstration project on credentials in 
consultation with ETA, followed by a study and a report no later 
than180 days after November 21, 2013. VETS and ETA staff are working 
closely to complete the procurement process and begin the demonstration 
project by June 30, 2012.

INCLUSION OF PERFORMANCE MEASURES IN ANNUAL REPORT ON VETERAN JOB 
        COUNSELING, TRAINING, AND PLACEMENT PROGRAMS OF THE DEPARTMENT 
        OF LABOR

    Section 238 of the VOW Act amends section 4107(c) of title 38 
U.S.C. by requiring the annual report mandated under that section to 
include new performance measures on DOL Veteran counseling, training 
and placement programs. DOL has developed the Information Collection 
Request to modify and extend the Labor Exchange Reporting System to 
collect the new data and is awaiting approval as part of the Paperwork 
Reduction Act. Additional data elements will be added to the Labor 
Exchange Reporting System (LERS) to collect median earnings as well as 
average earnings. We anticipate this change occurring before July 1, 
2012.

CLARIFICATION OF PRIORITY OF SERVICE FOR VETERANS IN DEPARTMENT OF 
        LABOR JOB TRAINING PROGRAMS

    Section 239 of the VOW Act amends current law to clarify that 
priority of service includes ``giving access to such services to a 
covered person before a non-covered person, or if resources are limited 
giving access to such services to a covered person instead of a non-
covered person.'' To enforce and track this change in law there will be 
another report requirement added (9002F) to the LERS by July 1, 2012 to 
the system for Priority of Service Reporting.

EVALUATION OF INDIVIDUALS RECEIVING TRAINING AT THE NATIONAL VETERANS' 
        EMPLOYMENT AND TRAINING SERVICES INSTITUTE (NVTI)

    Section 240 of the VOW Act amends section 4109 of title 38 U.S.C. 
to require that Disabled Veteran Outreach Program (DVOP) specialists 
and Local Veterans Employment Representatives (LVER) who receive 
training from NVTI are given a final examination. Examination results 
are required to be shared with the entity that sponsored the DVOP or 
LVER who received the training. DOL oversaw the creation and validation 
of examination currently in place. DOL also developed the remedial 
training and testing for those who do not pass the final examination. 
The first examinations were administered to the NVTI trainees on May 
21, 2012.

REQUIREMENTS FOR FULL-TIME DISABLED VETERANS' OUTREACH PROGRAM 
        SPECIALISTS AND LOCAL VETERANS' EMPLOYMENT REPRESENTATIVES

    Section 241 requires the Secretary to conduct audits to ensure that 
DVOPs and LVERs are complying with the mandated responsibilities and 
further, are not serving non-Veterans. Additionally, Section 241 allows 
state governors to request a waiver and hire consolidated DVOP/LVER 
staff. VETS will issue a Veterans Program Letter (VPL) clearly 
articulating the expectations for the DVOPs and LVERs under this 
section to the state workforce agencies. Finally, DOL is developing 
auditing protocols for pilot testing. The audits will begin in the 
third quarter of this fiscal year. To implement the consolidated 
position, DOL developed the relevant criteria and is now working with a 
few states to validate the process and determine potential impact on 
the overall workforce system. DOL expects to implement this section in 
July 2012 to coincide with the release of the Jobs for Veterans State 
Grants' (JVSG) state planning guidance issued that month.

RETURNING HEROES AND WOUNDED WARRIORS WORK OPPORTUNITY TAX CREDITS

    Section 261 of the VOW Act includes the extension of important tax 
credits that were an integral part of the President's agenda. 
Specifically, the VOW Act amends Section 51 the Internal Revenue Code 
by amending and expanding the definition of ``qualified Veterans'' to 
grant a tax credit to employers for hiring certain qualified Veterans, 
called the Work Opportunity Tax Credit or WOTC. The VOW Act extends the 
current category for Veterans receiving Supplemental Nutrition 
Assistance Program (SNAP) benefits, extends and amends the categories 
of disability for Veterans with service-connected disabilities, and 
established two new unemployed Veteran categories, one for Veterans who 
have been unemployed for 4 weeks, and one for Veterans who have been 
unemployed for 6 months. VOW further amends the Internal Revenue Code 
by allowing 501(c) tax-exempt organizations that hire qualified 
Veterans to claim the WOTCagainst the employer's share of social 
security tax imposed under the Federal Insurance Contributions Act.
    While the IRS is primarily responsible for carrying out the tax 
credit provisions of the VOW Act, the State Workforce Agencies (SWAs) 
process, verify and certify timely filed and eligible certification 
requests by employers or their representatives. DOL funds the SWAs' 
administration of these provisions, provides technical assistance to 
the SWAs, oversees overall implementation and tracks the WOTC data on 
the number of certifications issued by the SWAs to employers for 
Veterans hired. Once employers receive a SWA certification, employers 
can then claim the actual tax credit with the IRS. As a result of the 
VOW Act amendments and provisions, ETA issued Training and Employment 
Guidance Letter 30-11, which provided the public workforce system with 
guidance on this new provision and related IRS guidance on submission 
of Form 8850.

Repurposing of Funds

    In addition, the Department of Labor Appropriations Act, 2012 (P.L. 
112-74, Division F, Title I) provided the authority to repurpose 
resources from an existing demonstration project to make them available 
for other pilots, demonstrations, and research activities, and for 
implementation of the VOW Act within the Employment and Training 
Administration. A total of $5.489 million of PY 2011 resources is now 
available for these purposes, including updating state data systems for 
the Priority of Service reporting requirements and adjustments to the 
Work Opportunity Tax Credit, updating Federal management information 
systems to collect revised performance reports from states to support 
implementation of VOW, studying and disseminating equivalencies between 
military and civilian occupations, and providing technical assistance 
to the public workforce system on implementation of VOW.

Conclusion

    Mr. Chairman, Ranking Member Filner, and distinguished Members of 
the Committee, DOL and our sister agencies are committed to ensuring 
successful implementation of the VOW to Hire Heroes Act of 2011 in 
support of Veterans' success in the civilian labor market. We are well 
on our way to fulfilling this goal. Thank you again for the opportunity 
to testify today. I would be pleased to answer any questions you may 
have.

                                 <F-dash>
               Prepared Statement of Mr. Mark Andrekovich
    MAXIMUS appreciates the opportunity to submit testimony for 
consideration by the Committee on Veterans' Affairs as it reviews the 
implementation of the VOW to Hire Heroes Act.
    For nearly 40 years, MAXIMUS has partnered with state, Federal, and 
local governments to provide health and human service programs to a 
diverse array of communities. Since 1978, MAXIMUS has helped companies 
process eligible new hires through the Targeted Jobs Tax Credit 
Program, now the Work Opportunity Tax Credit Program (WOTC).
    As you know, in late 2011, Congress passed The Veterans Opportunity 
to Work (VOW) to Hire Heroes Act, including a tax credit to assist 
veterans and wounded warriors in returning to work. On November 21, 
2011 President Obama signed the Act into law. The VOW to Hire Heroes 
Act has the potential to help veterans obtain employment.
    We respectfully request that Congress act, as soon as possible, to 
extend the provisions of WOTC that expired, with the exception of the 
veterans hiring provision, at the end of calendar year 2011. The 
success of the Veterans Tax Credit requires the infrastructure of the 
larger WOTC program.
    Many businesses that participate in WOTC share the perspective 
that, without full WOTC reauthorization, the program falls short in 
supporting their hiring needs. The most recent Department of Labor data 
shows that less than 2 percent of WOTC tax credits issued were for 
veterans. Without reauthorization of the entire WOTC program, the 
administrative burden of processing tax credits is too great for 
businesses and veterans will not receive the opportunity to obtain the 
gainful employment they deserve.
    The WOTC program helped businesses and more than 940,000 
individuals last year alone. With reauthorization of the full WOTC 
program, states and their private sector partners can successfully 
implement the new Veterans Tax Credit.
    We are writing to ask that Congress ensure the success of the VOW 
to Hire Heroes Act and help stimulate economic growth by reauthorizing 
the entire WOTC program.

                                 <all>

</pre></body></html>
